<html>
<title> - FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON OVERVIEW OF RECRUITING AND RETENTION STATEMENTS PRESENTED BY MEMBERS OF CONGRESS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-20]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2008

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                MILITARY PERSONNEL SUBCOMMITTEE HEARING

                                   ON

         BUDGET REQUEST ON OVERVIEW OF RECRUITING AND RETENTION

                               __________

                              HEARING HELD

                           FEBRUARY 15, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                     U.S. GOVERNMENT PRINTING OFFICE
37-653 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                    MILITARY PERSONNEL SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
MARTY MEEHAN, Massachusetts          JOHN M. McHUGH, New York
LORETTA SANCHEZ, California          JOHN KLINE, Minnesota
SUSAN A. DAVIS, California           THELMA DRAKE, Virginia
NANCY BOYDA, Kansas                  WALTER B. JONES, North Carolina
PATRICK J. MURPHY, Pennsylvania      JOE WILSON, South Carolina
CAROL SHEA-PORTER, New Hampshire
               Michael Higgins, Professional Staff Member
                 John Chapla, Professional Staff Member
                   Margee Meckstroth, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Thursday, February 15, 2007, Fiscal Year 2008 National Defense 
  Authorization Act--Budget Request on Overview of Recruiting and 
  Retention......................................................     1

Appendix:

Thursday, February 15, 2007......................................    41
                              ----------                              

                      THURSDAY, FEBRUARY 15, 2007
 
FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
                  OVERVIEW OF RECRUITING AND RETENTION
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McHugh, Hon. John M., a Representative from New York, Ranking 
  Member, Military Personnel Subcommittee........................     1
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Military Personnel Subcommittee................................     1

                               WITNESSES

Brady, Lt. Gen. Roger A., Deputy Chief of Staff, Manpower and 
  Personnel, U.S. Air Force......................................     7
Chu, Hon. David S.C., Under Secretary of Defense (Personnel and 
  Readiness).....................................................     2
Coleman, Lt. Gen. Ronald S., Deputy Commandant for Manpower and 
  Reserve Affairs, U.S. Marine Corps.............................     6
Harvey, Vice Adm. John C., Jr., Chief of Naval Personnel and 
  Deputy Chief of Naval Operations (Manpower, Personnel, Training 
  & Education), U.S. Navy........................................     5
Rochelle, Lt. Gen. Michael D., Deputy Chief of Staff, G1, U.S. 
  Army...........................................................     4

                                APPENDIX

Prepared Statements:

    Brady, Lt. Gen. Roger A......................................   109
    Chu, Hon. David S.C..........................................    50
    Coleman, Lt. Gen. Ronald S...................................   115
    Harvey, Vice Adm. John C., Jr................................    88
    McHugh, Hon. John M..........................................    47
    Rochelle, Lt. Gen. Michael D.................................    68
    Snyder, Dr. Vic..............................................    45

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Kline....................................................   147
    Mr. McHugh...................................................   146
    Mr. Murphy...................................................   148
    Dr. Snyder...................................................   139

FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
                  OVERVIEW OF RECRUITING AND RETENTION

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                       Washington, DC, Thursday, February 15, 2007.
    The subcommittee met, pursuant to call, at 2:04 p.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
      ARKANSAS, CHAIRMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order. We are pleased 
today to have this array of witnesses to discuss recruiting and 
retention. This has been an important issue to Mr. McHugh for 
the time that he was the chairman and it continues to be an 
interest of both of ours.
    We are aware, the committee is aware, of the challenging 
recruiting and retention environment that we face as a country, 
particularly in light of the proposal for increased numbers in 
the Army and Marine Corps.
    During fiscal years 2006 and 2007, the Congress and 
Department of Defense partnered to authorize a wide array of 
increased recruiting and retention incentives and more flexible 
legislative authorities and part of our purpose today is to get 
a sense of where we are at with these partnerships. And I know, 
Dr. Chu, you made mention of legislative proposals coming up.
    So we are glad to have you all here, and before I introduce 
the witnesses, I will turn the time over to Mr. McHugh for any 
opening statement he has.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 45.]

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
     YORK, RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. McHugh. Thank you, Mr. Chairman.
    Without objection, I would ask that my full statement be 
submitted in the record in its entirety, and I will just make a 
couple of opening comments.
    First of all, gentlemen, welcome, as always. Thank you for 
being here. We deeply appreciate your service to the country 
and your efforts to help this subcommittee do its important 
work.
    Some of the issues we face, as you know, are relatively the 
same as in years past; the concerns about sustainment of 
adequate recruiting and retention programs, the question of 
end-strength, et cetera. But they take on a different dimension 
this year because we do have, some of us would argue, a long-
overdue increase in the force structure and the growth of end-
strength for the Army and the Marine Corps.
    That puts a different light on our recruiting and retention 
programs. We are going to be interested to hear from you as to 
that challenge and how you feel the way ahead may feel to you 
at this point. A number of other issues, as well, of course, 
that we look forward to your comments about, particularly as 
they relate to this budget.
    I am going to be interested in pursuing these supplemental 
requests as it affects your job. Most people think of that 
supplemental as a war-fighting instrument, something to pay for 
those important theaters. They are that, but there are other 
efforts as well, I suspect, perhaps recruiting and retention 
and how the approval or not of those requests may affect your 
job to grow the force.
    So thank you for being here, and I look forward to your 
comments.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. McHugh can be found in the 
Appendix on page 47.]
    Dr. Snyder. Thank you, Mr. McHugh.
    Our five witnesses today are Dr. David Chu, the Under 
Secretary of Defense for Personnel and Readiness; Lieutenant 
General Michael Rochelle, Deputy Chief of Staff, G-1, for the 
Army; Vice Admiral John Harvey, Chief of Navy Personnel and 
Deputy Chief of Naval Operations; and Lieutenant General Roger 
Brady, Deputy Chief of Staff, Manpower and Personnel, for the 
U.S. Air Force; and Lieutenant General Ronald Coleman from the 
Marine Corps, Deputy Commandant for Manpower and Reserve 
Affairs.
    We appreciate you all being here. If you all would testify 
in that order so that I won't get confused, that would be 
great.
    And, Dr. Chu.

  STATEMENT OF DR. DAVID S.C. CHU, UNDER SECRETARY OF DEFENSE 
                   (PERSONNEL AND READINESS)

    Dr. Chu. Thank you, Mr. Chairman and members of the 
subcommittee. It is a privilege to be here this afternoon, to 
be joined by my colleagues.
    It is our responsibility, as you suggest, Mr. Chairman, to 
testify about the recruiting and retention programs that affect 
the most important resource of the Department, and that is our 
people.
    We have in the last 18 months, in my judgment, sustained 
the success the volunteer force has enjoyed over the three 
decades of its existence. And that is due very much, I would 
argue, to the additional authorities that you have provided us 
in previous authorization bills.
    Indeed, the record of the recent years, I think, should be 
viewed in that historic context. If I could ask Mr. Gatreau to 
put the chart up for me, please. This chart is in my prepared 
statement, which I hope you would accept for the record, but it 
shows the Department's performance against two key standards 
that have for over a decade now been the norms against which we 
aim to succeed.
    That is to say that 90 percent or better of our new 
recruits, non-prior-service recruits, have a high school 
diploma as a predictor of their ability to stay with military 
service, and, second, that 60 percent or more of our recruits 
score above average on the Armed Forces Qualification Test.
    There has been a great bit of discussion about these 
standards. They have not changed for over a decade. They come 
out of a study undertaken in partnership with the National 
Academy of Science in the 1990's that balanced the return to 
these important characteristics against the costs of acquiring 
and retaining personnel with these success indicators.
    And in a longer perspective, they come out of the early 
history of the volunteer force, and as you can see from the 
chart, in the early days the volunteer force did not enjoy this 
same level of personnel quality in terms of its recruits, a 
much lower quality by these same standards. We have, however, 
for the last 20 years sustained those standards, and that is 
true down to the present day.
    Yes, we do make some changes in important factors that are 
a part of this picture, so, for example, several years ago we 
normed the test, we normed the Armed Service Vocational 
Aptitude Battery, that actually makes it somewhat tougher by 
two or three percentage points to get an above-average grade on 
that test than was true in the past.
    Our challenge, our challenge together, as you suggest, Mr. 
Chairman, is to sustain that success in the future. And I think 
there are two key complements in that present and future 
partnership.
    One, of course, is legislative action. You will be seeing 
from us shortly a proposal, once cleared by the Office of 
Management and Budget, to consolidate the myriad of special pay 
authorities we have into a smaller number of categories to 
improve the flexibility of the response to this Department as 
we look to future challenges.
    Second, we would like to extend and expand the pilot 
authorities given the Army to undertake special new 
initiatives, particularly in the recruiting lane. And, third, 
as we look to the joint needs of the future against a smaller 
manpower base for some of the services, we do believe we need 
some relief on grade restrictions for senior enlisted and for 
mid-grade officers. Certainly that is the case in the United 
States Navy, and I will let Admiral Harvey speak to that 
agenda.
    The second area in which we seek your partnership is in 
advocacy. I think it is critical, if the Nation wants a strong, 
able military, that we all speak up positively about the 
favorable aspects of military service.
    As the military has shrunk in the post-Cold War years, 
important parts of the country, and especially I think in many 
New England states, Northeastern states in the upper Midwest, 
important parts of the country no longer can see a military 
base next-door or see an example of a military effort close to 
the hometown. It is more distant than it was in the past, and I 
think it is important in that situation that we all speak up, 
encouraging young people who are interested in military service 
in the choice that they might make.
    In fact, I would argue that the most serious recruiting 
challenge we face is the outlook of what we call the 
influencers. What do parents, what do counselors, what do 
teachers, what do coaches, what do leaders like yourselves say 
when a young person steps forward and indicates that he or she 
be interested in military service? It is not just the Army's 
job or the Marine Corps' job to succeed in this regard. We 
would argue it is all our jobs as citizens of the United States 
to help ensure that success, or what we tell our young people 
about the choices they might make.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Chu can be found in the 
Appendix on page 50.]
    Dr. Snyder. I haven't said about the order. I forgot who is 
next on our list here.
    General Rochelle. Sir, I am.
    Dr. Snyder. Good. There you go. Thank you. General 
Rochelle.

  STATEMENT OF LT. GEN. MICHAEL D. ROCHELLE, DEPUTY CHIEF OF 
                      STAFF, G1, U.S. ARMY

    General Rochelle. Chairman Snyder, Representative McHugh, 
ladies and gentlemen, thank you so much for this honor and 
privilege to appear before this body today.
    Success of the all-volunteer Army starts with recruiting. 
Competition with industry, an improving economy, lower 
unemployment and decreasing support, as you heard from Dr. Chu, 
of key influencers are all significant factors, not to mention 
the global war on terror (GWOT).
    Thanks to your support and the efforts of the secretary of 
the army, secretary of defense, chief of staff of the army and 
support from this body, the United States Army was successful 
in recruiting over 175,000 young men and women in fiscal 2006, 
and we expect to repeat that this year.
    However, recruiting will continue to be challenging. It is 
always challenging, and that will be no different, obviously, 
in 2007 and moving into 2008. Medical recruiting is a 
significant challenge for all of us, but I will speak only for 
the Army.
    You are clearly aware that nurses are a national matter. 
There is a shortfall for everyone, and we feel that most 
pronouncedly in the United States Army. We will be seeking some 
dispensations to help us with that challenge, and I believe you 
will hear more about that.
    I will conclude my remarks by saying thank you for your 
support. Thank you on behalf of the more than one million 
soldiers who are serving in your Army today.
    [The prepared statement of General Rochelle can be found in 
the Appendix on page 68.]
    Dr. Snyder. Admiral Harvey.

  STATEMENT OF VICE ADM. JOHN C. HARVEY, JR., CHIEF OF NAVAL 
   PERSONNEL AND DEPUTY CHIEF OF NAVAL OPERATIONS (MANPOWER, 
          PERSONNEL, TRAINING & EDUCATION), U.S. NAVY

    Admiral Harvey. Thank you, sir. Chairman Snyder, 
Representative McHugh, distinguished members of this committee, 
thank you very much for the opportunity to appear before you 
today.
    I think it is important to start with one of the bigger 
lessons I have learned in my first year-plus on the job, and 
that is to state how grateful we are for the unstinting support 
that this committee has provided our sailors and our Navy. And 
without this support, we would clearly not be the Navy that we 
are today, and it is this Navy of today that you have done so 
much to support and sustain over time that continues to perform 
exceptionally well, helping to bring certainty to an uncertain 
world.
    Our Navy total force--and I emphasize the total force 
aspect of our Navy, active and reserve, our Federal and 
civilian employees and our contract personnel--continue to 
perform the traditional at-sea roles that we all grew up with, 
while drastically increasing our support in what has been non-
traditional missions for us: counterinsurgency, 
counterterrorism, civil-military operations and delivering 
humanitarian aid around the world.
    And certainly our challenge is to sustain these core 
capabilities and readiness that the Nation expects every day of 
every year, while building a future fleet increasingly capable 
of applying influence from the sea across the littorals and 
ashore.
    For the past five years, our focus has been on sizing the 
force, ensuring we had the right number of billets and the 
right number of sailors to fill those billets. Today, we are 
focused on shaping and stabilizing the force, ensuring we have 
the right fit between the knowledge, skills and abilities 
required by a billet and those possessed by the sailor to fill 
that billet and ensuring that we can easily adjust that fit 
based on what we see as a rapidly changing war-fighting 
requirements in our current environment.
    This shift in focus from fill to fit requires profound 
changes in the way we do business. Our recruiting, our 
personnel distribution system, our training and compensation 
processes, all must change in order to meet the challenge of 
delivering tomorrow's force.
    Cold War recruiting and retention strategies won't sustain 
us into the future, particularly in the face of a shrinking 
talent pool with decreased propensity for military service. 
Major demographic shifts, reflecting significant growth in our 
immigrant and minority populations, present new challenges, but 
also present us terrific new opportunities to leverage the 
diversity of our population and bring their talent into our 
Navy. And a Navy that reflects society's diversity will be a 
stronger, more cohesive and more capable fighting force in this 
society.
    The robust economy, evidenced by our low unemployment and 
sustained economic growth, increases the overall competition 
for the best and brightest talent in our Nation and meeting our 
recruiting goals in quantity and quality--quality which makes 
the difference for our force--will certainly become a far 
tougher task over the next few years.
    Retention dynamics are also changing as a new generation of 
sailors, the millennials and the post-millennials, enter the 
force and are increasingly likely to forego traditional, 
career-long relationships with a single employer, opting 
instead for frequent job changes over the course of a career, 
increased availability and variety of career choices, portable 
incentive packages, multiple training and education 
opportunities and increased competition for technologically 
savvy youth certainly contribute to this new dynamic.
    Our basis pay table was developed in 1922. The Officer 
Personnel Management System was essentially codified from 1971 
to 1979 and passed into law in 1980. Current military 
retirement compensation principles were essentially developed 
at the end of the last century.
    Given these foundations for how we do business, perhaps it 
is time, perhaps it is time to reexamine our existing 
compensation policies with an eye toward establishing a 
construct that is competitive, fair, flexible and responsive to 
the rapidly changing operational and market-based environment 
we are facing today and will continue to face in the future.
    Likewise, existing Defense Officer Personnel Management Act 
(DOPMA) grade limitations greatly inhibit our flexibility to 
efficiently align our personnel to current and projected force 
structure requirements. Navy has become a far more joint and 
senior force, reduced in size but with increased war-fighting 
capability.
    As our end-strength stabilizes, the need for more senior 
and experienced sailors will continue to increase. We are 
currently operating at or very near statutory control grade 
limits. Consequently, we are now suppressing billet grades 
through the programming and budgeting process in order to 
comply with current DOPMA constraints.
    In fiscal year 2008, Navy is seeking relief, as Dr. Chu 
mentioned, from these control grade limits to enable us to 
properly man our billet structure, while providing the 
flexibility to respond to the continuously emerging external 
control grade requirements, particularly in the rapid growth in 
the joint world.
    As we build the Navy of the future and prepare our people 
to meet the demands of this dynamic and dangerous world, we 
must continue to improve total force readiness, stabilize our 
force and develop the policies that bring forth the full 
promise of our people.
    Our Navy total force must be ready when, wherever called 
upon. That is our heritage, that is our legacy and, with the 
continued support of the American people and this Congress, 
that is exactly what we will continue to do.
    Thank you very much, sir.
    [The prepared statement of Admiral Harvey can be found in 
the Appendix on page 88.]
    Dr. Snyder. Welcome.
    General Coleman.

STATEMENT OF LT. GEN. RONALD S. COLEMAN, DEPUTY COMMANDANT FOR 
        MANPOWER AND RESERVE AFFAIRS, U.S. MARINE CORPS

    General Coleman. Sir.
    Chairman Snyder, Representative McHugh and distinguished 
members of the subcommittee, it is an honor to appear before 
you today to discuss Marine Corps recruiting and retention.
    I would like to first thank all of you for your continued 
support for our Marines and their families. The commitment of 
Congress to increase the war-fighting and crisis response 
capabilities of our Nation's armed forces and to improve the 
quality of life for Marines is central to the strength of your 
Marine Corps today.
    I would like to make three points. First, in fiscal year 
2006, the Marine Corps exceeded its mission both in recruiting 
and retention. In doing so, we continued to exceed DOD quality 
standards in recruiting. We also achieved over 97 percent 
military occupational specialty match in first-year Marines and 
94 percent in career Marines.
    Second, in fiscal year 2007, the Marine Corps is off to a 
strong start in both recruiting and retention. We were 
initially on pace to meet or exceed our fiscal year 2006 
results. As part of the plan to increase our end-strength to 
202,000 by fiscal year 2011, we are now planning to increase 
our end-strength to 184,000 by the end of fiscal year 2007.
    Consequently, we are increasing both our recruiting and 
retention missions significantly. These new missions will 
present challenges to our recruiters, commanders and retention 
specialists, but we believe we will meet the challenge.
    Key to our success will be the additional funding that we 
have applied to both our enlisted, bonus and selected 
reenlistment bonus programs. Third, the plan to increase the 
Marine Corps end-strength will enable our Marine Corps to 
better train across the war-fighting spectrum, responding to 
other conflicts and crises and reducing the strain on our 
Marines and units.
    Meeting the end-strength growth requirement will require us 
to continue to increase our recruiting and retention goals. The 
Marine Corps will also increase the number of recruiters, 
expand marketing and advertising efforts and increase 
enlistment and reenlistment incentives.
    We ask for your support in authorizing and funding these 
programs. With these important tools, we will be able to 
continue to attract and retain the best and brightest. Thanks 
to you, your Marine Corps remains the Nation's force in 
readiness and will continue to fulfill its mission of being 
most ready when the Nation is least ready.
    I look forward to answering your questions.
    [The prepared statement of General Coleman can be found in 
the Appendix on page 115.]
    Dr. Snyder. Thank you, General.
    General Brady.

 STATEMENT OF LT. GEN. ROGER A. BRADY, DEPUTY CHIEF OF STAFF, 
             MANPOWER AND PERSONNEL, U.S. AIR FORCE

    General Brady. Mr. Chairman, Congressman McHugh and members 
of the committee, thank you for this opportunity to discuss our 
efforts to ensure we recruit and retain high-quality airmen for 
the world's most respected air and space force.
    Our airman have been continuously deployed and globally 
engaged in combat missions for more than 16 straight years, 
since the first F-15 touched down in Saudi Arabia in August of 
1990. Today, airmen are fully engaged in the interdependent 
joint fight and stand prepared for rapid response and conflict 
across the globe.
    Our priorities are clear: winning the global war on terror 
and preparing for the next war, developing and caring for our 
airmen to maintain our competitive advantage, and modernizing 
and recapitalizing our aircraft and equipment to meet 21st-
century challenges.
    As you know, we have been involved in a critical 
recapitalization and modernization effort for an aging air and 
space force. Budgetary pressures force difficult choices to 
ensure that the Air Force would maintain the right balance 
across our personnel, infrastructure, readiness and investment 
portfolios.
    The Air Force undertook significant personnel reductions to 
generate dollars, to reprogram toward essential systems for 
recapitalization and modernization, concurrent or congruent 
with these three key mission priorities.
    While this has been difficult, it has also provided the 
impetus for a hard look at our processes and organizational 
structure. At the same time, we have placed equal emphasis on 
improving the education and training of our airmen.
    The bottom line is that we are becoming a leaner, more 
flexible, more capable force. As we prepare for an uncertain 
future, we are transforming the force to ensure we have the 
right sized and shaped force to meet emerging global threats 
with joint and battle-trained airmen.
    We are becoming a smaller force with a critical need for 
specific skills. We recruit, train and educate our airmen for 
the complex multinational and interagency operations of today 
with an eye on tomorrow. Our recruiting force has met our 
recruiting mission through great persistence and dedication.
    In 2001 through 2006, we had a recruiting mission of more 
than 158,000 and assessed over 160,000, or 101 percent of 
mission accomplishment. For 2007, the active-duty mission 
requirement is 27,800. Over 6,400 new airmen have assessed up 
to this point, with another 12,000 waiting to enter basic 
training. We are on track to meet our goals.
    To date, for fiscal year 2007, we have assessed 100 percent 
of our active-duty goals, 100 percent and 107 percent of our 
reserve and guard goals, respectively. Our recruiting service 
continues to find the right person for the right job at the 
right time, and this is ever evident in our most critical war 
fighter skills.
    The recruiting service has filled every requirement for 
combat control or pararescue; tactical air control party, 
survival, escape, resistance and evasion; and linguists since 
2001. This has been accomplished through hard work and 
significant assistance of this Congress, and we appreciate it.
    These individuals are offered an initial enlistment bonus 
ranging from $3,000 to $12,000, depending on the job and the 
term of enlistment. No other enlistment bonuses are offered.
    The majority of our officer programs have met with mission 
success, but much like General Rochelle told you, medical 
recruiting and retention remained a challenge.
    In fiscal year 2007, we continue to manage and shape the 
force across and within skills. Maintaining retention at 
acceptable levels through targeted retention programs continues 
to be critical to this effort. Force shaping ensured active-
duty end-strength met our longer-term requirements. This effort 
is successful in no small measure because of your support.
    Active-duty Air Force and Air National Guard met their 
overall officer and enlisted retention goals for fiscal year 
2006. The Air Force Reserve met its officer goal but fell 
slightly short of its enlisted retention goal by 0.8 percent, 
attaining 99.2 percent of goal.
    Even with these successes, some enlisted specialties in the 
active Air Force did not achieve their overall retention goal. 
Our most critical war-fighting skills require a special 
retention focus to maintain combat capability due to critical 
manning and increased operations tempo demands placed on career 
fields such as pararescue, combat control, explosive ordnance 
disposal.
    Budgetary support for retention programs is critical to 
effectively manage the force and retain needed war-fighting 
capabilities. These programs are judiciously and effectively 
targeted to provide the most return on investment in both 
dollars and capability.
    Our war-fighting airmen are committed to serving, including 
those experiencing high deployment rates. Combatant commander 
requirements and the global war on terror at large require a 
high demand for pilots, intelligence, maintenance, civil 
engineers, communication and enlisted officers, as well as 
enlisted airmen and aerospace maintenance, supply, 
transportation munitions and weapons, fire protection, services 
and security forces.
    Despite an increased operations tempo and deployment rate, 
retention statistics for these career fields mirror the Air 
Force average. As part of our Air Force transformation, we 
continue to improve education and training. We are extending 
basic military training to 8.5 weeks to teach airmen the skills 
to defend an airbase and set them up in an expeditionary 
operation. We are teaching every airman self aid and buddy care 
so that they can take care of each other when their bases take 
mortar fire or the truck they are driving comes under enemy 
attack.
    We are teaching language training and enhancing regional 
studies in our Air Command and Staff College, Air War College 
and our non-commissioned officer (NCO) schools. We are 
consolidating Air Force specialty codes to provide broader 
skill sets and enabling flexibility and GWOT and support of 
combatant command (COCOM) missions.
    We have also placed a great focus on language and culture 
training at officer accession sources. One force development 
strategy is to target foreign language speakers, primarily 
focusing on Air Force Reserve Officer Training Center (ROTC) 
detachments sponsoring foreign language programs. We currently 
have 54 cadets enrolled as language majors, with another 629 
scholarship cadets majoring in technical degrees and taking 
language as electives.
    All Air Force Academy and Air Force ROTC cadets on 
scholarship contracts majoring in non-technical degrees must 
complete four semesters of foreign language and our technical 
majors must complete two semesters. Today's airmen are 
performing at the high standards that have been the hallmark 
for as long as there have been American airmen.
    Our airmen are fully prepared and engaged today, and we 
must continue to invest to ensure tomorrow's air and space and 
cyberspace dominance. We have taken prudent actions to ensure 
your Air Force remains the most respected air and space force 
in the world.
    We appreciate your unfailing support for the men and women 
of our Air Force, and I look forward to your questions. Thank 
you.
    [The prepared statement of General Brady can be found in 
the Appendix on page 109.]
    Dr. Snyder. I think we made it through everyone, even 
though I didn't follow the order worth a darn.
    Mr. Higgins is going to start the clock here. We are going 
to follow our five-minute clock, but that is for us. And we 
have a panel of five, and if you see the red light go on and 
you have got a thought you want to finish or if it hasn't 
gotten to you, we want you to go ahead and spend the time. 
Don't be panicked about that. That is for us, that we will 
stop.
    Go ahead and start it there.
    Dr. Chu, you mentioned advocacy.
    I guess it is just coincidental, but, Mr. McHugh, have any 
of you done this ``Colbert Report'' thing? So right away you 
know what a doofus you have got for chairman here, because I 
did. It was taped down the hall here about three weeks ago, and 
tonight they are broadcasting it. But as part of that, I forget 
the context. He tapes for about an hour and 20, 30 minutes so 
he can have a lot of material to edit and to making officials 
look stupid, which is not difficult to do.
    But part of that was at some point he said, I want you to 
look in the camera and encourage people to enlist, which I did 
very sincerely. And the point I tried to make is that even in 
times of great foreign policy debate, which our country goes 
through every now and again, we still need good folks to step 
forward and back their country, and I believe that very 
strongly. I appreciate what you have said about advocacy.
    Dr. Chu, before I get into some specific questions, I want 
to get real basic here. I want you to define with as much 
particularity as you want to, the terms attrition, accession, 
retention, delayed-entry program and recruitment.
    Dr. Chu. Okay, sir, let me do my best. First of all, thank 
you for your advocacy.
    Dr. Snyder. We will see the show tonight at 11:30, then we 
will decide.
    Dr. Chu. That is not my usual bed time, but let me be sure 
I touch all the terms you----
    Dr. Snyder. Retention, attrition, accession, delayed-entry 
organization and recruitment.
    Dr. Chu. Okay, let me start with accession. That means to 
us that you actually join the military. You raise your right 
hand and take the oath to protect and defend the Constitution 
of the United States. That is different from contracts, I might 
add, which are like reservations in the system. So we may have 
higher contract goals in order to build a pool of people.
    That is the delayed-entry program. There are people who 
agree to serve, but to come on at a future date.
    Attrition refers to the premature loss of an individual, in 
other words, before the expected term of service. And, 
typically, against a three-year horizon, we lose about one-
third of the cohort before the end of that period of time.
    Retention implies that the individual made a positive 
decision to accept a longer or additional term of service that 
may or may not be in return for something we offer them as an 
incentive.
    I believe I covered all your terms----
    Dr. Snyder. Just the general term recruitment, is that a 
term of art, or does it just refer broadly to----
    Dr. Chu. I think recruitment is, as you imply, sir, subject 
to a broader and less precise interpretation. Perhaps the way I 
would look at it, as I think my colleagues would, is that while 
people on the one hand speak of this as an all-volunteer force, 
in reality it is an all-recruited force.
    We don't just wait for people to show up, we reach out, 
partly because, as you appreciate, we do set high standards and 
have for the last 20 years or so for whom we would like to have 
in military service. So we need to advocate for those kinds of 
people to come in and make a positive decision, in particular 
make a positive decision, as General Brady's testimony implied, 
to take on some of the most arduous, demanding, hard-to-train-
for tasks in the military.
    Dr. Snyder. Dr. Chu, and then anyone else can join in on 
this question, too, with regard to the valuation for promotion, 
the performance of your recruiters, are all the services now 
evaluating their recruiters the same way and which of those do 
they look at in terms of evaluating the performance of 
recruiters for promotion, et cetera?
    Dr. Chu. I would let my colleagues answer, because I do 
think there are some individual service----
    Dr. Snyder. That is what I would like to hear.
    Dr. Chu [continuing]. Their specific circumstances. So, as 
one example that General Coleman can elaborate on, the Marine 
Corps unites both the recruiting and the training function, 
because its view, and I think there is merit to that view, is 
that until the person has successfully come to the conclusion, 
graduated, from training, we haven't quite succeeded yet.
    But perhaps I would turn to each of my colleagues to 
describe how they evaluate their recruiters.
    Dr. Snyder. General Coleman, do you want to start, and we 
will just go down the line.
    General Coleman. Yes, sir, and thank you, sir.
    Our recruiters and all recruiters are probably one of the 
more difficult, if not the most difficult, assignment anyone 
can have. But recruiters are graded, evaluated on how well they 
do their job, not only how many recruits come in, how many 
recruits graduate and the quality of those recruits.
    Our recruiters are out for usually a 36-month tour. Some 
will volunteer to stay longer. Some will kiss the ground and 
leave at that 36-month mark, because it is such a tough 
assignment. But they are evaluated not only by the number that 
they contact and the number that they bring in, but also the 
number that remain and graduate from basic training.
    Dr. Snyder. Admiral Harvey.
    Admiral Harvey. Yes, sir. It is a multifaceted approach. 
You start it with an assigned quota, but you don't want a quota 
solely to drive performance, because that leads you down some 
roads that you don't want to walk down. So you have a quota you 
aim for, and you also are a member of a team and a district, 
and so you are evaluated on your participation and your ability 
to enhance the overall performance of the recruiting team in 
that area, as well.
    And then you are evaluated on your ability to sustain our 
delayed-entry pool, what you do to keep the folks that we have 
put under contract, that we depend on for a steady flow through 
the year, to keep them on board and interested and focused and 
motivated.
    So it is a lot of things go into it, one of which, an 
important part of which, is have you met what we expect you to 
bring in in terms of your own individual performance, and then 
how are you as a member of the team and contributing to our 
overall performance, sir?
    Dr. Snyder. General Rochelle.
    General Rochelle. Yes, sir, not much more to add, except 
that we recognize recruiters who are exceptionally good at 
recruiting quality just a little bit better, or higher, if you 
will, than the recruiter who simply achieves the number, if I 
may put it that way.
    And since 2002, we have been gradually shifting the credit, 
frankly, to mirror the Marine Corps' model from simply 
achieving the enlistment contract or reservation to the young 
man or woman actually arriving at basic training.
    Dr. Snyder. Arriving at basic training or finishing basic 
training?
    General Rochelle. Arriving, sir.
    Dr. Snyder. General Brady.
    General Brady. I would echo very much what my colleagues 
have said, and particularly Admiral Harvey.
    It is multifaceted, clearly, maybe to a greater degree than 
other people in our service there are some empirical standards 
by which you can measure how effective they are. But, at the 
same time, I think it is just as important that we expect our 
standards, our recruiters, to reflect the very high standards 
of Air Force. They are the welcome wagon to the Air Force, and 
so we want them to look sharp and be sharp and have all the 
professional standards that there is nowhere that it is more 
important than that.
    So it is not just they are meeting their recruiting goals, 
but it is the way they present themselves, the way they conduct 
themselves, their teamwork and their ability to present the Air 
Force to the young men and women of America.
    Dr. Snyder. Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    One of the many reasons I haven't done ``Colbert'' is I am 
just so bad at math. So, General Rochelle, I am going to ask 
you to help me understand some math, here.
    In your written statement, you note that the Army in 2006, 
fiscal year 2006, reached more than 100 percent of your 
recruiting mission. You also note that the Army achieved 105 
percent of its retention mission in 2006. And those are great 
statistics, but the interesting part, and where the math comes 
in, is that in spite of those more than 100 percent 
achievements, you really achieved an end-strength of just over 
505,000 in 2006, that failed to reach the authorized end-
strength of 512,000, about 7,000 less.
    And what I am having a hard time understanding is how can 
you be so successful on your recruiting and retention goals, 
but not achieve the end-strength. And then I have got to ask a 
broader question about end-strength to your colleagues. But 
what happens there?
    And, really, while you are at it, I guess the more 
important question is you are going to retain those same 
objectives for the next fiscal year, in spite of the fact that 
your next target for end-strength is supposed to grow to 
518,400, with that recruiting goal of 80,000. How does the math 
work there? How are we going to successfully grow the force 
when those kinds of objectives, having been met, are not really 
adding to the force. They are not getting where you state you 
want to be. Help me understand.
    General Rochelle. Excellent question, sir. Thank you for 
the opportunity.
    To be quite blunt, we reached our limits of advance in 
2006. Given the recruiting climate that we were in, we were 
very successful. In total, we grew the force of the United 
States Army by 13,000 in 2006. We could not simply grow it any 
faster or any larger, nor could we achieve it any faster in 
2006.
    We do expect to hit 518,000 in 2007, from a combination of 
both strong recruiting, with the help of this body and 
certainly very strong retention. By the way, sir, I might add 
that we were in fact within the 2 percent tolerance given us by 
the Congress against that 512,000 end-strength.
    Mr. McHugh. Absolutely.
    General Rochelle. We were authorized to go up that high.
    Mr. McHugh. And I don't want to suggest that it was less an 
achievement than it was, because you had come a long way. But 
clearly the challenge now, uniquely, is to grow the force for 
you and the Marine Corps. And I am having, as I said, a hard 
time understanding how an 80,000 target--you are going to have 
to really overachieve. And I am just concerned myself that 
recruiters naturally will target the target--that is why they 
call it a target--and not focus on the fact of that expected 
overachievement. And retention is really going to have to work, 
which brings me to my next question.
    This committee, I and the chairman and many others, have 
expressed a concern about the roller coaster budget lines that 
recruiting and retention receive. Good times, when recruiting 
is easier, the dollars don't seem to be there. They go 
elsewhere. Retention and recruiting programs kind of fall off, 
and then times get hard and it is tough to make it up.
    If you look at your budget for recruiting, it is clear that 
more and more the services are being called upon to rely upon 
supplementals for their recruiting and retention programs, and 
we can go through the numbers, but you know them probably far 
better than I do. The Army, for example--on my left, Michael 
tells me.
    Thank you, Michael.
    The Army right now, compared to what they actually spent in 
2006 and the base budget for 2007, for recruiting and retention 
programs, is about $735 million behind. All the services are 
behind. The Army is the biggest number.
    So I think it is good for us in Congress to hear your 
assessment of what the upcoming supplemental budget may mean to 
your ability to meet your end-strength and what happens in that 
ability if somehow the Congress doesn't go where you think it 
needs to go.
    Dr. Chu. If I may start, Congressman McHugh, the fact that 
some of this funded in supplemental reflects a budgetary 
strategy that is under change, as you appreciate, as to how 
these things are handled. That is the decision made about the 
individual service level.
    There is in my judgment an aggressive posture, particularly 
for the Army, in the 2007 supplemental for additional funding, 
both to support recruiting and retention efforts and to support 
the growth in end-strength that we hope thereby to achieve.
    Two, your bottom-line question, how important is the 
supplemental to our success? Critical, and I think critical 
especially to receive the supplemental. I recognize it is 
beyond this subcommittee's responsibilities, but critical to 
receive the supplemental in a timely manner, or the natural 
reprogramming friction will make it much harder for the 
military services to reorient monies in order to try to sustain 
the success that has been achieved thus far.
    Dr. Snyder. Thank the gentlemen.
    Ms. Davis.
    Ms. Davis of California. Thank you, Mr. Chairman.
    While we are looking at these numbers, can we talk a little 
bit about--and thank you all very much for being here, for your 
service, as well.
    Just can we sustain the rate of bonuses that we are giving 
out, and is that of great concern to all of you?
    Dr. Chu. Let me start, ma'am, and invite my colleagues to 
join. My short answer would be yes.
    Ms. Davis of California. Numbers, because I think it is--we 
spent $1.8 billion on retention bonuses. Fiscal year 2006 was 
$300 million more than the 1.5 spent in during 2005. And we 
really are escalating it.
    Dr. Chu. Ma'am, we have increased the amounts. That is 
true. However, you look at the total compensation bill for the 
Department, the bonuses, special pays, typically are less than 
ten percent. Many years they have been five percent of the 
total.
    It is, I think, a tribute to the management of the 
Department and the partnership of the committee for many years 
that we have been able to use bonus and special pays in a 
targeted manner, because that is much more economical of 
taxpayers' money.
    And so, yes, I think that success can be sustained. What 
probably matters more than attention to the total amount is our 
authority on how and when we can pay it. You have been very 
gracious in the last several years in enlarging that authority, 
allowing payment of bonuses and targeted extensions when we 
have a specific need. So, for example, to persuade individuals 
to join specific reserve units, or in the case of an important 
program where we are urging those personnel leaving from the 
Air Force and the Navy, as part of their downsizing, to 
consider the Army as a further career choice.
    Those have been very helpful authorities. So our emphasis 
has been much more on how we can spend the money, be sure we 
can spend it in a way that is effective.
    The budgetary amounts are manageable from the Department's 
perspective, the executive branch's perspective. Indeed, our 
problem in the bonus accounts has typically been that the 
appropriations process has not always been kind to them. 
Sometimes it has reduced them in manners that we find 
problematic.
    Ms. Davis of California. Anybody else want to comment? 
Generally, is that how you found that you are able to retain 
the folks that you want as a result of the bonus? And what if 
they went away? Is that not possible?
    General Rochelle. I would first of all say, ma'am, and 
thank you for the opportunity to respond to that question, that 
on the retention side, that is very, very wise investment, to 
keep a trained soldier, sailor, airman, Marine, Coast 
Guardsman, is a wise, wise investment. So I would say you have 
to sustain that, and maybe even take it higher.
    The second point I would make is that given what we see in 
terms of the individuals who are eligible to serve in--and I 
will speak, once again, just for the Army today--only three out 
of 10 young Americans between the ages of 17 and 25 are 
eligible to serve today, without a waiver. That is medical 
waiver or a moral waver or an aptitude waiver.
    And given declining propensity, which Dr. Chu spoke of and 
my colleague from the Navy also spoke of, we may have no choice 
on the recruiting side, except to continue along the same path.
    Ms. Davis of California. Thank you. You are mentioning the 
percentage of individuals that are eligible to serve now, and I 
know, Dr. Chu, you pointed out the fact, and I have actually 
heard this when we have asked people, tell us about the quality 
of recruits or the quality of individuals that are serving 
today, and they often mention the fact that people are much 
more adaptable to information technology, of course, but their 
physical condition is poor.
    Can you address that, and are we lowering those standards 
in order to get the folks, and how are we going to deal with 
that?
    Dr. Chu. No, ma'am, we are not lowering the standards. We 
are exploring how we best apply those standards.
    The Army, and General Rochelle can speak to it better than 
I, has another program in which we look at people who might be 
viewed as overweight by our body mass index indicator but 
nonetheless have good physical fitness.
    So, for example, most National Football League players 
could not pass the body mass index standard. The issue 
therefore for us is well, is that always the right indicator? 
The Army has developed an additional set of tests to put people 
through to see do they have the physical potential to succeed 
in basic and advanced training? Because that is really the 
issue.
    I will acknowledge, however, that the national problem with 
overweight, obesity in the extreme, is an issue for us, because 
it is partly behind General Rochelle's three in ten number. And 
so improved national physical fitness is an important 
consideration for us.
    General Rochelle. I would only add, to echo what Dr. Chu 
said, and to piggyback off of the wonderful remarks of Admiral 
Harvey, as well, we have designed two tests with support from 
the Office of Secretary of Defense, the Tier Two Attrition 
Study, which takes a young person who has not graduated from 
high school and applies different aptitude tests, in addition 
to the Armed Services Vocational Aptitude Battery, and tracks 
their performance. And it is comparable to that of a high 
school retention and success in basic training.
    And to the extent that we have the longitudinal data, unit 
attrition, as well, mirrors that of a high school graduate. The 
body mass index test that he referred to is called the Advanced 
Respiratory Monitoring System (ARMS) test, and it is a measure 
of, really, if you will, the heart of the individual to serve. 
Here, again, those individuals who would not have been eligible 
to enlist based upon body mass, height and weight and the ratio 
thereof, they, too, retain and are successful at the rates of 
individuals who do.
    So, in that sense, I would offer that to echo Admiral 
Harvey's comments about our changing demographic.
    Dr. Snyder. Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman. It occurs to me when we 
are sitting here that half the Marines in Congress are at this 
table and we are trying to do this higher math. I am very 
concerned. [Laughter.]
    I have got tables and charts here, and frankly we are 
trying to figure out if we are authorizing enough money, if 
there is enough money to meet the increased recruiting demands, 
because I certainly believe what General Krulak used to say, 
that the all-volunteer force was an all-recruited force. You 
have got to get them. You need access to high schools and to 
colleges, and we are interested in watching that.
    I was sorry to hear about the shortage of nurses, and I 
will try to keep that from my wife. She may decide that the 22 
years she served as an Army nurse wasn't enough.
    Dr. Chu. We do have retiree recall programming.
    Mr. Kline. No, I am taking the phone off the hook.
    Let me try to get at it this way, if I can. I want to get 
this down simple enough so that I can sort of get my hands 
around the increased recruiting effort, and I want focus--Dr. 
Chu, you can address this, or General Rochelle or General 
Coleman, or all three of you.
    Can you quantify for me two things that would help me 
understand what we are doing with the increased demands for 
recruiting? One, if you compare--we will use fiscal year 2006, 
before we increase the end-strength of the Army and the Marine 
Corps, to fiscal year 2008, particularly in the Army and Marine 
Corps, now, how many more recruiters--and you can include 
officers selection officers of whatever we call them--are you 
going to be putting out in the field? And how much more money 
are you going to spend on advertising? Not on bonuses and all 
the rest of it--that is very important. That number is probably 
$6 billion plus. But just so I can kind of understand the 
impact, how many more people you are putting in the field, how 
much more you are spending on advertising, what goes on 
television and so forth.
    If you have got that, I would love it. Supplemental, 
anything, whatever you have got out there. How much more?
    General Rochelle. Sir, I will have to take for the record 
the advertising budget for fiscal 2007. I am afraid I don't 
have that figure immediately at my fingertips.
    Mr. Kline. I am looking for it for 2008.
    General Rochelle. Yes, sir, I meant for 2008. What I do 
know is that, one, we have added in the last 3 years 
approximately 400 additional recruiters to the field. And these 
are the enlisted recruiters who recruit for both officer 
candidate school (OCS), as well as the enlisted force. And we 
are planning in the next few months to add an additional 200, 
and I think you will hear from my colleagues that just about 
everyone is adding to that recruiting force.
    We are looking at the advertising from within the existing 
budget to attempt to reapportion the amount that is spent at 
the national level, broad-reach advertising, if you will, which 
is television, cable TV and the like.
    And the secretary has authorized a shift more to the local 
level, not ignoring the national level, and I think that is 
quite wise.
    Mr. Kline. Okay, well, I will still be looking for the 
overall dollars spent. I appreciate that we are going to spend 
money more wisely, more efficiently. I am not yet persuaded 
that that is the thing to do, but nevertheless, that is hard 
for me to believe that we are going to try to increase this 
end-strength and not have to spend more money on advertising.
    General Rochelle. Sir, if I may add one thing, please.
    Secretary Harvey, in his testimony yesterday, indicated 
that the budget for fiscal year 2008 is sufficient to achieve 
the mission, and I honestly believe that is absolutely true. In 
addition to that, he made it clear that there was no hesitancy 
on his part to reprogram, should that be necessary.
    Mr. Kline. Okay, and I heard that. I attended that hearing. 
I would still like to see the dollars and we are a little bit 
in the oversight business here.
    General Rochelle. Of course.
    Mr. Kline. I want to see how this plays out.
    And then either Dr. Chu or General Coleman, what is going 
on----
    Dr. Chu. Before General Coleman responds from the Marine 
Corps perspective, let me just add one other thing that I think 
is important to highlight in terms of the Army's experience, 
and that is the Army has, importantly, led by the National 
Guard, tried, benefiting also from your pilot authority, 
additional authorities in the authorization act, tried a new 
approach to recruiting. To get young people, and start with the 
guard, having their own people, serve as recruiters and receive 
a small payment as a recompense for their effort if that 
individual shows up and swears in and then completes basic 
training successfully.
    And that, I think, General Blum, the National Guard bureau 
chief would tell you, General Vaughn, the Army Guard chief 
would tell you has been very, very important in terms of the 
Army Guard's recent success in recruiting, getting a different, 
beyond our normal trained recruiters, getting a different set 
of people out there to advocate with their peers, really--and 
of course for the guardsmen, someone who can speak to this is 
what it is going to be like. This is what you are signing up 
for. This is what I experienced.
    I think it is very powerful, very innovative. The Army has 
been aggressively extending that to the Army Reserve as an 
approach and I think the active Army is starting to do 
something similar.
    Mr. Kline. Thank you. We have seen that in Minnesota for 
some years now. In fact, the Minnesota Guard has been at the 
forefront of that recruiting from high schools. It does put 
them in competition, a little bit, with the active Army.
    But, if I could--the light is red, but if I could get the 
answer from General Coleman on how many more recruiters and how 
much more money you are going to spend advertising.
    General Coleman. Yes, sir. On recruiters, we recently added 
200 recruiters for a total of 2,850 recruiters. We plan to 
increase by 200 in fiscal year 2008 and another 200 in 2009.
    As far as money, sir, we spent in fiscal year 2007 $135 
million and we would need an--we are talking about advertising. 
We would need an increase in 2008.
    Mr. Kline. But you don't know what that number is? It is 
not in the budget? You haven't put a line in there for the 2008 
budget?
    General Coleman. No, sir, I don't have that. I will have 
that for you before we leave here.
    Mr. Kline. Okay, thank you.
    Thank you, Mr. Chairman.
    General Rochelle. And if I may, sir, if I could answer Mrs. 
Davis's question from before, we absolutely need the bonuses 
and cannot do without them.
    Dr. Snyder. Ms. Drake.
    Mrs. Drake. Thank you, Mr. Chairman.
    And thank you all for being here.
    In regards to healthcare, can you tell me what our 
recruiters are saying now to a new recruit? What I am trying to 
determine is what is the expectation of our men and women who 
are signing up in recent years or today? We all know that years 
ago people thought, or were told, or thought they were told, 
they would have healthcare for life at no cost.
    So I just want to know, what are we saying today?
    Dr. Chu. Ma'am, let me start and invite my colleagues to 
continue. If you look at our Web sites, look at our materials, 
what they are told is when you are on active duty, you and your 
family will get a low-cost, high-quality healthcare plan. We do 
not say it is free. And, in fact, it is interesting, we don't 
generally speak to the post-service elements of the plan. So it 
is focused on active service. When you join the active 
military, this is part of the package that you will receive.
    Mrs. Drake. And you are not talking about retirement at 
all, which would be good.
    Dr. Chu. As you look at our materials, and I did review 
this very recently, no, typically we do not speak to post-
service benefits.
    I think that reflects a variety of factors, including the 
fact that young people, whether they enter the military or not, 
tend to be very present focused. Something 20, 30 years from 
now, at least that has been our experience, collectively, isn't 
a major selling point.
    Mrs. Drake. Okay.
    Dr. Chu. Maybe it should be, but it is not.
    Mrs. Drake. And that is across the board, all four of you.
    The other question that I have deals with, again, retention 
and bonuses, but particularly in regards to our Special 
Operations forces. We all know that they are an incredible 
asset, and they are in very high demand right now in the 
corporate world. And I have actually experienced it, hearing 
people come up in the community and to be out somewhere and be 
there with someone who is an active-duty SEAL and someone come 
up and talk to them about what they would be willing to give 
them if they were to separate from the military.
    So I wondered if you think the bonuses are a short-term fix 
or if there are things we could talk about more in retirement 
benefits. Or if we ask them, what is it that would keep you 
here with the military? And, of course, the young man where I 
overheard the conversation was just so determined he was going 
to serve the U.S. that he did not buy into that.
    Dr. Chu. That certainly is the spirit of so many of the 
fine people serving in those ranks. We have actually had a 
conversation like that over the last three years with the 
commander of the Special Operations Command, currently General 
Brown. And we have put in place a much more energetic program 
of retention incentives for Special Operations personnel.
    I think the most interesting feature of those changes is 
that for the first time the Department is using authority you 
gave us, including the critical skills retention bonus 
authority, to encourage people to stay beyond 20 years of 
service. To my knowledge, it is the only important program we 
have where we tried to do that. And it is for exactly the 
reasons that you described. Part of it is in the different 
Special Operations communities, it is typical that you recruit 
someone to that community who has already had several years of 
service in some other military specialty, so that the career 
length in Special Operations is going to foreshortened.
    Until now, until the build-up of these forces, it hasn't 
been a big issue. It is now, and so we are actually offering 
rather powerful incentives, large amounts of pecuniary reward 
to counter the private sector, in part. If you will agree, when 
you reach 16, 17, 18 years of service, or 20 years of service, 
to serve for a number of years beyond the 20-year point, I 
think that is the--there are other parts to the package, but 
that is the most interesting change, in my judgment.
    Mrs. Drake. Well, and I think we would like to know if 
there is anything you identify that you think would be more 
helpful and could keep them retained.
    I see I have just a little more time, so if I could ask 
something a little off topic, I wondered from General Brady if 
you could give us an update on the National Security Personnel 
System (NSPS) and particularly the Spiral 1.1, because I 
understand the Air Force is involved in the program and I 
wondered if you have any input on that, if you could give us an 
update?
    General Brady. I think it is going very well. Obviously, 
that issue, as you well know, there are some legal issues in 
the minds of some and there is some court action regarding 
that. But for those people who are not in bargaining units, we 
are moving forward with that. I think we are enthusiastic about 
it. I know we are enthusiastic about it, and we are very 
positive about and very pleased with the response of our people 
in regard to NSPS.
    We think it is an incredibly important initiative for the 
services and, quite frankly, for our people, for our ability to 
retain, recruit and reward our very finest people.
    That system was designed to help us do that and we are very 
anxious to move forward with it as conditions permit.
    Mrs. Drake. Thank you for that.
    Thank you, Mr. Chairman. I yield back.
    Dr. Snyder. Dr. Chu, the issue about evaluating the 
recruiters, and I understand there has got to be--you are 
evaluating human behavior, it is an art. It can't just be some 
kind of strict thing. But it seemed a little bit loosey-goosey 
to me. You had made some reference that there are some 
differences in the services.
    Is that something on your level that you are continuing to 
look at or are you satisfied that the services are doing what 
they need to do?
    Dr. Chu. We are generally satisfied with what the services 
are doing, although the details vary. Typically, actually, it 
is among the more focused and performance-oriented standards in 
the military.
    Dr. Snyder. Do you have an apples-to-apples comparison 
between the services on attrition?
    Dr. Chu. Yes, sir, we do. We have the data.
    Dr. Snyder. Your charts, by the way, are part of the record 
that has been submitted. I don't think that was part of your 
statement.
    Dr. Chu. It was. The chart is in my statement.
    Dr. Snyder. On attrition?
    Dr. Chu. The chart I showed up there.
    Dr. Snyder. That one is, yes, I know.
    Dr. Chu. The attrition numbers are not in my statement but 
we would be glad to furnish them for the record, sir.
    Dr. Snyder. Do you know offhand, are all four services 
about the same?
    Dr. Chu. To a first approximation, they are roughly 
speaking the same. There are some differences about when it 
occurs. So the Marine Corps does benefit, in my judgment, from 
the way it handles delayed entry program (DEP). It has somewhat 
less attrition, therefore, in the basic training period, 
because some of that occurs during the DEP period, importantly, 
I think, because the Marine Corps does that use that period for 
some very elementary military training and some physical 
fitness training.
    And, if anything, we would like to encourage all to think 
about that. There are some legal issues there, I would 
acknowledge, that are a little tricky. But to a first 
approximation looked across a three- or four-year time horizon 
for the initial cohort, the services are roughly similar.
    Dr. Snyder. You make a reference I think both in your oral 
statement, also in your written statement, about the special 
and incentives pay legislative proposal coming.
    Dr. Chu. Yes, sir.
    Dr. Snyder. Do you anticipate that that will be essentially 
budget neutral?
    Dr. Chu. Yes, sir.
    Dr. Snyder. Is it going to be about the same amount of 
money but you want to move it around. Okay.
    Dr. Chu. It is the rules, how we apply it and flexibility, 
ability to be agile, that in our judgment are important. They 
would not turn the money around.
    Dr. Snyder. And I think it was also in your written 
statement, Dr. Chu, where I think you discussed ROTC and ROTC 
scholarships and that there has been a drop-off. Is that 
something that you are looking at or we need to look at?
    My take-home a little bit from that was that we need to 
increase the amount of scholarships. Is that an over-simplistic 
reading of that, or how do you see that issue? Amplify on that 
for me, please.
    Dr. Chu. First, there is, as you would recognize, a trade-
off among the three, really four, commissioning sources we 
enjoy, the academies, ROTC, officer candidate programs of 
various kinds and direct commission. So one must be careful not 
to overdo any one, because each has its merits and its benefits 
to the services, to the Nation, to the individuals concerned.
    We are relatively comfortable where we are, broadly 
speaking. I do think we have to be energetic about our ability 
to pay tuition expenses at the more expensive schools, because 
that is an issue. The Army has over the last two or three years 
revamped how it has handled ROTC scholarships to make it more 
advantageous at those schools. And I do think we have to watch 
out over time for our ability pay, which you have helped with, 
expenses other than tuitions for schools that have low tuition 
but significant expenses of other kinds, typically some of the 
state institutions.
    So there are issues of degree, but think in terms of kind 
we are relatively comfortable with where we are.
    Dr. Snyder. Your written statements says that the 
Government Accountability Office (GAO) indicates that 
enrollment has dropped to 26,000--this is ROTC enrollment. It 
has dropped to 26,000 from a 32,000 enrollment in 2003. The 
ROTC program has produced 12 to 16 percent fewer offers this 
year than the 4,500 that has been programmed. I would assume 
that is a significant number for you all to deal with.
    So you are saying it is----
    Dr. Chu. Manageable, because the other source is--let me 
back up. First of all, we have to discriminate between how many 
people enroll in the ROTC and how many people graduate to paid 
commissions. Those are different outcomes, as you appreciate.
    Second, we also have the Officer Commissioning School lane. 
And I do think, as a matter of mobility within the force, 
particularly given the high quality of enlistees in the 
contemporary volunteer force, it is very important to have a 
vigorous officer candidate school and direct commissioning 
program so that those who are best qualified at this point can 
look forward to that opportunity.
    Do you want to add anything?
    Admiral Harvey. Yes, sir. Just in the Navy, just to your 
point, we are seeing behaviors across the board return to our 
pre-9/11 level, and so our force shaping and sizing that we 
based on and the balance you have between retention and 
recruiting, the assumption we made was we are going to be able 
to retain to where we were pre-9/11 and not in that post-2002, 
2003 period, where there was certainly another dynamic in play 
influencing those decisions. And to that point, we see that in 
applications, both at the Naval Academy and for ROTC programs.
    I think the drop is from an abnormal increase that we 
experienced post-9/11, and now we are seeing a return to what 
has been a steady-state level before that time, sir.
    Dr. Snyder. Thank you.
    Mr. Murphy, we are going to let you do a catch up on round 
one, even though we just started round two. So go ahead, five 
minutes.
    Mr. Murphy. Thank you, sir.
    Thanks, gentlemen, for being here today. We obviously 
didn't meet the allocated authorized force, especially when we 
talk about the Army on active duty. And I understand that with 
the recruiting they have met their goals, but they were so 
short. How about retention? Why do you think the retention--is 
it just the op tempo of the Army that we are seeing such 
bleeding within the Army?
    General Rochelle. Sir, the Army was successful in 2006, 
highly successful in 2006, across all of our components of 
retention, to the 108 percent level overall. And thus far this 
year, retention is running at about 111 percent of our goal. 
Part of the reason we are successful, obviously, are the 
authorities that we have been granted by this body for 
retention bonuses and such.
    Mr. Murphy. I am just trying to wrap my arms around the 
numbers, though, because we are short as far as the authorized 
goal of active-duty trends, we are not there. That is correct.
    Dr. Chu. Congressman, if I may interrupt. I think the 
confusion arises from the fact that the end-strength goal that 
the Congress authorized was not the goal at which the Army was 
aiming. The Army was aiming at a sort of goal that was 
consistent with then-planned force build, which was not 
necessarily 512,400.
    Mr. Murphy. What was the Army goal, Doctor?
    Dr. Chu. The Army was aiming at a personnel, active 
personnel, number consistent with its build to 43 brigade 
combat teams active. That was not necessarily 512,400. That 
number was the Congress's authorized goal. It was the same as 
the internal planning agreement between the then secretary of 
defense, Don Rumsfeld, and the Army, over how far above the 
baseline number, 482,400, could the Army go without coming back 
to him for a further dialogue.
    But the Army did not necessarily name at 512,400 in order 
to sustain its build toward 43 brigade combat teams (BCTs). I 
think that is a source of confusion. You have a congressionally 
authorized number, which as General Rochelle points out the 
Congress itself said plus or minus two percent is okay. And 
under a declaration of national emergency, these numbers are 
not a floor or ceiling for the Department, at least under 
current statute.
    We had the Army building its strength through its accession 
and retention goals to sustain a particular brigade combat team 
plan. The last three, the accession goals and retention goals 
and brigade combat team plan, that those all came together, 
512,400 is a different mark on the wall. That is my only point.
    And so the Army didn't miss a goal. That is what I would 
underscore.
    Mr. Murphy. But, so I am accurate, what is the goal? What 
are the numbers? I understand the 43 BCTs, Mr. Secretary, but 
my confusion, and maybe you could help me here, is what was the 
Army's goal. I know you are saying it wasn't the Congress's 
goal, 512, what was the Army's goal?
    General Rochelle. For recruiting or the goal for overall 
growth?
    Mr. Murphy. Overall. I mean, was it just that we are going 
to get 43 brigade combat teams and then we are going to stop? 
Or was it we are going to try and hit--you are saying the goal 
wasn't 512 that we authorized, but what was the goal?
    General Rochelle. We attempted to grow the Army as far 
toward that 512,000 authorized end-strength as far as we could 
go. I commented earlier to a question from Congressman Kline 
that we essentially reached our limits of advance on the 
recruiting side of it, but we are very happy with the retention 
achievements and accomplishments.
    We were shooting for a goal, we thought we could hit 502, 
and we did hit 502, and that is the figure that Dr. Chu was 
speaking of. In fact, we exceeded 502--505.
    Mr. Murphy. Yes, thank you.
    Dr. Snyder. Dr. Chu, the ROTC information was not from your 
written statement. It was from the committee staff memo, so if 
you thought you just completely had a loss of brain matter, it 
was me that did, not you.
    Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    Mr. Murphy's point, though, I think is one that we tried to 
pursue earlier, and it is well-taken, and that your goals are 
not going to get you where you want to be in 2008. And I guess 
we have agreed upon that. You are going to have to be terrific 
overachievers to get to the 518,400. That is your goal.
    Dr. Chu. Yes, sir. Now, on that point, we agree with you.
    Mr. McHugh. Or 2007, pardon me.
    Dr. Chu. We will have to recruit more than 80,000 this 
year. We will have to retain well, consistent with the Army's 
2006 track record, to hit 518.
    Mr. McHugh. You are absolutely right. You are going to have 
to have a great year. And I guess the disconnect is, then, why 
aren't we adjusting goals? Why don't we have a goal of 90,000, 
versus 80,000?
    Dr. Chu. That issue is under discussion within the 
Department, should we adjust the formal goal, and, if so, how? 
To be fair to the Army, the decision to add additional combat 
brigades to the Army's structure was taken after the 2007 
budget was formulated and after the 2007 goals were 
established. The 2007 goals, of course, start 1 October 2006. 
The decision on additional brigades for the Army, additional 
structure of the Army and likewise the Marine Corps, that 
decision was taken in late December, early January, 2007.
    So, yes, we are going to have to hit more than 80,000. 
There is a robust discussion going on about how should one 
formally recognize that. There is the management issue of how 
do you change the signals to the recruiters in the field in an 
effective way so that they do the right thing?
    Yes, sir, we know, we have to recruit more than in----
    Mr. McHugh. Thank you, Mr. Secretary.
    Let us talk a little bit about waivers. If you look at the 
raw numbers for DOD across all the services, in 2004, all 
waivers as a percent of accessions was 20 percent. Through 
2006, it is now 25 percent. That is a 25 percent increase. And 
if you look at, for example, the active Army, you went from 12 
percent of waivers as a percentage of accessions in 2004, and 
now it is up to 20 percent, nearly doubling those.
    And the troubling part to me, and Dr. Chu talked about body 
mass index and overweight and revaluations and health areas. 
And I think that is appropriate. The American health profile is 
changing and the services ought to be allowed to do that as 
well.
    But the largest, by far, percentage of those waivers is in 
the moral. In 2004, the Army issued 4,529 moral waivers. Now it 
is nearly twice that that, at 8,129. The Marine Corps, 53 
percent of all of its accessions is under a waiver. What can 
you say to this subcommittee and this Congress to assure us 
that is not a clear indicator, or an indicator at all, of the 
erosion of recruit quality?
    Dr. Chu. Let me begin and invite my colleagues to join me 
in this response. First, I think we have, in the way we have 
presented the waiver issue, caused a misapprehension which is 
ill founded.
    One has to step back, I believe, and ask why are the 
waivers there? They are there because, just as you suggested, 
sir, we put applicants' military service through a long series 
of screens. There is a set of physical screens, there is a set 
of mental screens, there is a set of credential screens. That 
is the high school diploma, GED, et cetera. And there is a set 
of behavioral screens--have you ever done X, Y or Z.
    We could, of course, not ask those questions and we would 
have zero waivers, but we do. And so the waivers represent 
those cases where an individual has answered honestly and said, 
``Yes, I did try marijuana.'' That is one of the reasons for 
the high Marine Corps number. And then we make, or my 
colleagues and their teams make, a considered decision, in the 
most serious cases at the general officer level, is this truly 
a disqualifying event, or is it a one-time aberration, youthful 
indiscretion, whatever the case might be?
    We count, frankly, in the most unkind way, so charges, for 
example, that are not adjudged not guilty by a court are 
counted in our system. It doesn't mean that you actually were 
found guilty. It doesn't mean that you would have been found 
guilty. It means that we reviewed your case. That is really 
what the waiver means. It says you answered positively.
    It is like a health screen, when you go to the doctor. You 
answered positively on an indicator did you ever try marijuana, 
yes or no. The Marine Corps standard is one trial, one trial, 
which would disqualify large numbers of Americans, one trial is 
enough to trigger a review.
    Now, it doesn't mean that we disqualify you, but it does 
mean that to be enlisted you have to have a waiver in the 
Marine Corps standard. Now, other services aren't quite so 
strict with the marijuana issue. Each service has slightly 
different standards in this regard.
    And so I am not troubled by the waivers, because they are 
an indicator that we are reviewing the records of these people, 
we are making considered decisions. The real issue is, are 
those decisions wise? In other words, is the subsequent service 
of these people consistent with our judgment that the youthful 
indiscretion or whatever it might be--you broke your neighbor's 
window, for example. In Massachusetts, malicious destruction of 
property of more than $250 can be charged as a felony. At 
repair rates these days, it is not hard to run up a $200 bill 
for something that you might do to your neighbor's house.
    Mr. McHugh. You know that pretty well. Were you charged?
    Dr. Chu. I have been paying these bills, recently. I have 
painful knowledge of what local labor rates look like. So I 
think we need to look at the waivers as these are the people 
who processed successfully--we don't report, maybe we should, 
how many people answered these questions positively and we 
rejected. We don't actually keep those data, unfortunately. 
Maybe we should be keeping those data, to give you a fuller 
picture of what is going out there.
    Now, the Army has shared with me, and I will let General 
Rochelle have his turn at this, its tracking of the subsequent 
attrition, to go back to Chairman Snyder's question, of those 
who received moral waivers. And my understanding of those data 
is at least in the last four or five years, the attrition 
rates, which is one indication of whether you have served 
successfully or not, for those who received moral wavers is 
about the same as those who received no waiver whatsoever. And 
it is below waivers for other reasons.
    For example, we have administrative waivers if you have a 
large number of dependents and so on and so forth, and that 
group does not serve as successfully.
    General Rochelle.
    General Rochelle. Sir, I would only add that we do ask 
tough questions, and we induce as best we can the individuals 
to answer them truthfully and then follow up.
    The review that is done for any serious misconduct is at 
the general officer level. I would like to emphasize that. And 
the judgment, to Dr. Chu's point, when we look back at either 
the attrition or the overall performance of the soldiers who 
have been granted waivers, is very positive. In fact, as he 
said, it exceeds the stick-to-itiveness and it exceeds the 
quality of service, for example, for an individual we might 
give a medical waiver to.
    Mr. McHugh. Does anyone else have a comment?
    General Coleman. Yes, sir, I would, sir.
    As was stated, all it takes is for a poolee to say, ``I 
tried marijuana one time,'' for the Marine Corps to say, 
``Okay, we are going to have to re-look this, see if you are 
deserving of a waiver and then give or issue or not issue that 
waiver.''
    I think this is a check and a double-check and a third 
check to ensure that we are getting the quality recruits. Over 
the last five years, the increase in waivers has been four 
point eight percent, which means less than one percent a year 
increase in our numbers of waivers.
    Mr. McHugh. And, Mr. Chairman, if I just may submit a 
question for the record, and I appreciate that. And, clearly, 
the outcomes justify what has been happening here. The quality 
of the men and women in uniform today is stunning. It is 
remarkable. So something sure is working.
    But we have all heard the questions and the aspersions of 
doubt cast upon the quality of folks in the military today by 
others and I find it despicable. And I would like to have an 
additional response for the record, please, as to the growth of 
the waivers.
    Dr. Chu. Sir, I think that is very much appropriate. I 
think we are at fault, I accept responsibility. We have not 
explained the waiver program to the American public in the way 
it should be. And I think when properly explained people will 
be comfortable with what we are doing and whatever changes 
might occur in those numbers.
    Mr. McHugh. Thank you.
    Thank you, Mr. Chairman.
    Dr. Snyder. When you have 535 representatives that I 
suspect a few times a year ask you to consider getting waivers 
for someone. Isn't that accurate?
    Dr. Chu. I won't go there, Mr. Chairman.
    Dr. Snyder. Ms. Davis.
    Ms. Davis of California. Thank you. Thank you, Mr. 
Chairman.
    You have some very ambitious goals in terms of recruiting 
and I know that we talked a little bit about some of the 
demands on recruiters and how tough that it is, perhaps. The 
GAO, and I am sure you are familiar with this report, took a 
look at recruiting and felt that the services needed better 
data to enhance the visibility over the recruiter 
irregularities, and I understand there were a number of 
recommendations, of which DOD accepted probably the bulk of 
those in terms of the recommendations.
    Has there been a change in the way that that data is 
collected, so that they can have a better handle on where are 
the irregularities, where the problems may be, and what is it 
about those changes that you have confidence in, perhaps, or 
not so? Or do you think that they were overreacting?
    Dr. Chu. Yes, ma'am, we have accepted the majority of the 
GAO's recommendations in this regard, the most important of 
which you have touched upon, and that is we need to establish 
and we have established for the Department as a whole a set of 
standard category standard definitions of what constitutes 
irregularity.
    Again, I want to praise the quality of the recruiter force, 
generally. It is excellent. It is some of our finest young men, 
young women, in uniform. The Marine Corps has long had a 
policy, for example, of sending some of its strongest 
performers to recruiting duty.
    General Pace was a recruiter, if I recall correctly, early 
in his career. And some of the irregularities, in fact, a 
nontrivial portion of the irregularities in the GAO count were 
what you would call administrative irregularities. In other 
words, they did not conform to all the procedural steps, or 
they made some other error of one sort or another that is not 
really an indictment of performance, but it does indicate an 
area that we should--so we have laid down----
    Ms. Davis of California. And yet the numbers, sir, were 
fairly high, the jump of irregularities, as I understand it. Is 
that not true?
    Dr. Chu. No, I don't think we judged them to be 
extraordinary. But to the central issue of the GAO report, that 
we lacked a consistent way of defining, tabulating and 
reporting on this, they were right. We have published that 
template and the services are now following it.
    Ms. Davis of California. Let me just turn to one area that 
we all recognize as of great need in the services, and that is 
linguistic ability. I know that yesterday at the hearing--I 
believe it was yesterday--I needed to leave early, but I saw 
that in the goals, it states that the initiatives had been 
fully funded for language recruits or work that is being done.
    And I am just wondering how you would assess how ambitious 
those goals are. Are we setting a goal which is doable, but 
maybe doesn't get us to where we want to go? Should we be more 
aggressive in that area?
    Are recruiters encouraged to find students in communities 
who may have some language gifts that we can use? And are they 
being as aggressive in that? Should we be providing some kind 
of bonuses even in recruitings in that area because it is such 
a great need? How would you assess that? Are we being as 
ambitious as we should?
    Dr. Chu. Whether we are being ambitious enough or not I 
think only time will tell. I do think this is an area of true 
transformation in the Department. When I came to this 
Department in 2001, language was not viewed as a critical 
skill. It was not given much attention. It is now central, in 
my judgment, to the efforts of all four military services.
    And just to outline the major steps we have taken, we have, 
as you know, strengthened the Defense Language Institute (DLI), 
which has long been a flagship asset to the United States. 
Recall, many of our most proficient academics trained 
originally at DLI as service members in years past. But we are 
doing more there. We are doing more in depth there. We are 
doing more language there.
    Second, we have, as General Brady's testimony underscored, 
decided that language is and will be a competence that our 
future leaders must have across the board. Two out of three 
military academies are making it mandatory for everyone. The 
third is adding a strong emphasis to its current programs. And 
we are in the process, thanks to your approving it last year, 
of awarding grants to ROTC institutions to strengthen the 
language programs.
    American higher education typically teaches what the former 
secretary would have called the old European languages. We 
don't teach as much Arabic, Chinese, Korean and Japanese, et 
cetera, as we should. We need to change that. We in the 
Department need to provide the seed money and recognize that we 
are funding it as part of the President's national security 
language initiative.
    And we are willing to reach beyond that. We recognize that 
the time to learn a language is when you are young, when you 
are in kindergarten and first grade, not to wait until high 
school. And so the Department of Defense has funded at the 
Federal level the first of these so-called pipeline programs. 
The first one was in Oregon in Chinese. The second one, 
announced just last fall, Michigan, in Arabic.
    And that is to pay the local educational authorities to 
start a program at the kindergarten level that takes students 
all the way through high school, to encourage the local, the 
state university, to offer a scholarship, other support, for 
those who prosper and succeed in those areas.
    Third area of endeavor is to recruit from the heritage 
language communities. The Army has a very successful program in 
this regard, and I certainly would defer to General Rochelle to 
say a few more words about it. But language and culture is now 
a central part of how we view future war-fighting skills. It is 
embodied now in the curricula of separate service war college, 
commander general, staff college programs.
    General Rochelle. I would only add, ma'am, that we have had 
a program since 2004 to recruit from native Arab speakers for a 
program we call the translator, Arabic translator. This past 
year, 2006, we recruited 300 for that program. I can't give you 
the total over time, but----
    Ms. Davis of California. I appreciate that.
    Thank you, Mr. Chairman, for the additional time. I think 
one of the concerns is, at least it was my understanding, that 
even today, with one of the embed forces, we may have two 
translators there for however many people in theater, in any 
one particular area. It seems like we obviously have to work on 
this very hard, and I appreciate what is being done.
    The other thing I would just mention really briefly, I know 
that Camp Pendleton in San Diego is partnering with San Diego 
State University in a program, because the folks coming from 
the defense university actually said that they didn't feel they 
were well-prepared. And so they are now working with more 
informal speech, really, more conversational speech, at that 
level. And maybe we need to take a look at that and be sure 
that if we have those programs that can be worked in with the 
university where they also are providing fitness training and a 
whole lot of other things at the same time. That might be 
helpful and something that we can use----
    General Brady. Congressman Davis, I think you have raised a 
great question, and I think the honest answer is we don't know. 
We can ask what the requirement is. I think we can tell you 
with some precision what the requirement is in an intelligence 
sense for near-native speakers and absolute native speakers. We 
can tell you what that is, and that is hard to achieve.
    The other issue, as Dr. Chu alluded to, is this issue of 
language and culture. And this very panel has had this 
discussion on a weekly basis, occasionally, over in Dr. Chu's 
office, about is it big ``L'' and little ``c'' or is it big 
``C'' and little ``l''? How do you get to a greater cultural 
awareness, which we all sign up to? We all know we have got to 
be better at this. How is the best way to get to that?
    So defining the requirement, outside of the pretty clear 
intelligence requirements for those kinds of linguists I think 
is hard to know. And next week several of us on this panel are 
going to be meeting with some other predominantly English 
speakers, the people from Canada and the U.K. and New Zealand 
and Australia and Great Britain are going to meet and discuss 
this topic as to how are those services addressing this 
challenge. And I am looking forward to that discussion.
    Dr. Snyder. Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    I have been sitting here worrying about my comment about my 
wife's former service as an Army nurse and dreading the phone 
call. So I think I should offer that my niece is a graduate of 
one of those splendid ROTC programs and is already serving on 
active duty as an Army nurse, and so leave us alone. 
[Laughter.]
    I think it needs to be said that I, at least, am very proud 
of the recruiting effort and the retention effort that the 
services have mounted. I, of course, spent my life in the 
Marine Corps and I am always pleased to see that the Marines 
have exceeded their accession and retention goals, and all of 
the services have really done a fine job in the climate that we 
are in with the very, very low unemployment. What you are 
competing with is really tough. There are lots of jobs out 
there, and so you have got to compete with that civilian 
employment.
    Having said that, I want to one more time make sure that it 
is perfectly clear what I am asking for in my earlier question. 
I understand fully, as do the members of this committee and the 
staff and all others, that there are many things associated 
with recruiting and retention. It is bonuses and it is general 
quality of life and there are all sorts of things involved.
    But what I am asking for is specifically a comparison 
between fiscal year 2006 before the President announced the 
increase in end-strength, which we have all been begging for 
for some time, I might say, and fiscal year 2008, once we have 
gotten through all of this fiscal year 2007 and started 
transition and what we requested and didn't request and all 
that. But the difference between 2006 and 2008 and the numbers 
of recruiters, Army and Marine Corps, and the dollar amount of 
the advertising budget. And I know that is not the whole story; 
I understand that. And if you want to put asterisks and commas 
and things, that is okay.
    But I really would like to see that comparison, so we can 
get an idea of what you are thinking and what you are doing. 
Even though I said I wasn't any good at it and probably 
shouldn't do it, I tried to do some math here. And it looks to 
me like the Marines are increasing their recruiters in the 
field by some 21 percent. I think those are the numbers, 2,800, 
200, something. That is a pretty significant increase, and I am 
not critical of that at all. That may not even be enough. I 
don't know.
    But if you can just for us, for the record, as quickly as 
you can, let us see those two snapshots. I don't mean to be 
ignoring the Air Force and the Navy, but you haven't had this 
plus-up in end-strength that the other two services have. And, 
with that, incredibly enough, with the light green, I yield 
back.
    Admiral Harvey. One point, sir, that we are increasing our 
recruiter strength significantly in view of the more 
challenging environment we are getting to. I took the watch 
last year in fiscal year 2006 with about 3,400 field 
recruiters. And by the middle of 2009, I am going to be at 
5,000 recruiters in the field to meet a mission that is going 
to be going up, even though our end-strength is coming down. So 
the dynamic applies to just about everybody, sir.
    Mr. Kline. Since the light still is green, even though I 
yielded back, let me reclaim some time. Since you have 
volunteered that up, let me ask all the services for that same 
comparison, because you are looking--I mean, clearly you are 
looking at the climate and so forth, so let us see that 
comparison, 2006 to 2008, please, for all----
    Admiral Harvey. Absolutely, sir.
    Dr. Snyder. Mr. Murphy.
    Mr. Murphy. Thanks, Mr. Chairman.
    I joined, first, the Army. I joined in 1993 and from 2001 
to 2003 my additional duty when I was a professor at West Point 
was to be a recruiter, called into the JAG Corps, the New York 
law schools, Fordham, Columbia and Pace Law School, New York 
Law School. I went to interview prospective officers coming 
into the JAG Corps.
    I know, I was thinking back, when I was a recruiter, I 
didn't have an standard operating procedure (SOP) as far as if 
there was a protest. I mean, they protested about Iraq, about 
the don't ask, don't tell policy, but I never had an SOP from 
my understanding, or from my memory, to report that back.
    Is there an SOP to report if there is a protest, either at 
a college or at a high school, if there is a protest or if 
there are people that are barring you access to that student 
body?
    Admiral Harvey. Yes, sir. During the normal incident 
reporting system that applies across the board to the military, 
not just to recruiters, you would have something that goes from 
a unit situtation report (SITREP), where someone comes and 
stands in front of your recruiting station with a sign, to when 
if you were actually trying to go on and visit a recruiter and 
you were physically intimidated. And it moves up the scale to 
the old operations report (OPREP) system, that type of things.
    So I see all those kind of reports. The CNO sees them, the 
secretary of the navy sees them all throughout the Navy, so it 
is covered in our normal incident reporting system, sir.
    Mr. Murphy. How about the numbers, Admiral? Have they been 
going up, since, say, the start of the Iraq war? At least maybe 
the past----
    Admiral Harvey. I will quantify it for it later, sir, but 
my sense is from my year on the job is that it has been very 
steady, low numbers of physical events near a recruiting 
station, bomb threats, things like that. Nothing out of the 
usual that I have seen in the past year, sir.
    Mr. Murphy. What percentage, if you could--I know you don't 
have the numbers in front of you, but what is the percentage?
    Admiral Harvey. I would really hesitate to give you 
something that I don't have a basis for, sir. So I will come 
back to you.
    Mr. Murphy. But you can get that to us, you think?
    Okay, can I ask the other branches?
    General Rochelle. Sir, may I add that in 2005 we saw a 
fairly precipitous increase in the numbers of seriously 
reportable incidents in and around recruiting stations and on 
college campuses. So, at that point, the Army Recruiting 
Command strengthened its reporting criteria, as well as to 
capture as much, if you will, information about the protest or 
the incident as we could.
    I can't give you a number, but my estimate would be that it 
has remained relatively--it actually may have declined since 
2005.
    Mr. Murphy. I am sorry, General, so you think it has 
declined?
    General Rochelle. I think it has declined a little bit 
since 2005.
    Mr. Murphy. And that is because we strengthened more 
recruiters?
    General Rochelle. I am speaking of the number of incidents 
that are reportable may have declined, but I will provide that 
information accurately for the record.
    Dr. Chu. If I might, Congressman Murphy, to buttress what 
General Rochelle said, when we had some of the high-profile 
incidents, we have taken extra steps in terms of what you do 
when this occurs, how you comport yourself, et cetera, in terms 
of counseling those who are going to go to a campus and it 
might be an issue.
    Two, the law schools, specifically, you read a list where 
fortunately I don't believe we had any miscreants on it, but 
when this Administration began, we had approximately two dozen 
law schools that would not afford our JAG recruiters access 
equal in quality and scope to that afforded civil employers.
    The Congress armed us with the authority to deal with this 
issue and we have been quite successful. That list is down to a 
very small number. There is one still in litigation, I regret 
to say, where the Supreme Court did reject the argument of the 
law schools that they could bar such recruiting. And you, the 
Congress, strengthened our authority by putting those words, 
equal in quality and scope, into the statute.
    Mr. Murphy. And maybe those are----
    General Brady. This would be the Air Force, sir.
    Mr. Murphy. I am sorry. My brothers in the Air Force are 
going to be upset with me right now.
    General Brady. I think our report would be anecdotal, but 
we are highly sensitized to areas in which we sense less 
friendly access in schools. And so our recruiters are very good 
about reporting if they run across a school district or 
independent school, individual schools, where we may feel like 
we get the folding chair back in the locker room for a 
recruiting area. So we are paying a lot of attention to that, 
but have seen no real significant uptick in that, anyway.
    Mr. Murphy. I have a little bit of time. I guess how about 
as far as the high schools and I accessed it as student 
information responses. Has that----
    Dr. Chu. That has likewise improved with the provisions 
Congress has given us and direction it gave us some years ago, 
which was to send a senior officer to speak with those schools. 
We have gotten the number of those schools down significantly. 
We do have one high school that is an issue, currently.
    I won't mention its name or location, but it is consistent 
with every stereotype in American culture. That doesn't mean 
there isn't a potential issue out there, and that is the whole 
question of opt out and how to deal with that, with some 
wanting it to be opt in. We would, of course, vigorously oppose 
such a step as being inconsistent with the very call to service 
that Chairman Snyder has just recorded.
    Dr. Snyder. General Brady, articulate for me--and I am now 
hesitant to say where I have read stuff, since I have already 
confused Dr. Chu's statement with the committee memo, but 
articulate for me where the thinking of the Air Force is right 
now with regard to the coming down of numbers when the Marine 
Corps and Army are going up and you all are to be responsible 
for carrying them around.
    General Brady. Right. That is an excellent question, and I 
appreciate you asking it. As you recall, in fact, I think you 
and I have personally had this conversation; the Air Force 
finds itself in a situation where we have a rapidly aging fleet 
that we must recapitalize. We decide that we could and should, 
to ensure that our airmen have the best chance of not only 
survival but mission success tomorrow that they have today, we 
had to provide them with the appropriate equipment to meet the 
threats that we foresee in the future and to be successful.
    To do that, we made the decision, which we believe was the 
prudent one, to take some reductions, and you are aware of 
that. As we look going forward at that, we are certainly not 
unaware of the discussion going on regarding the ground forces. 
And, as you increase the ground forces to whatever degree they 
are increased as a result of the ongoing discussion in this 
body, there is--if they increase, to whatever degree they 
increase, there is a commensurate complement that you have to 
do in the Air Force as well as part of the interdependent joint 
fight.
    So, as we go forward, and that increase takes effect in the 
ground forces, to whatever degree it does, that requires that 
we reassess where we end up in terms of our end-strength, and, 
as you point out, our ability to take them around to be attack 
P's, to be para-jumpers (PJs), to provide what we provide as 
part of the joint fight, intelligence, surveillance, and 
reconnaissance (ISR), whatever it might be.
    So I think that is what you are seeing. You are probably 
referring to the testimony of our chief and secretary in 
another hearing that said, I think, what I am saying, that that 
is something that we are looking at. We are not asking for a 
change in this cycle, but as we get through the end of 2008 and 
into 2009, there will be a time and we will be doing that this 
summer, looking at where we go in 2009.
    Now, a change, of course--of course, we have budgeted for a 
change to take us to 316,000 from where we are now. We are at 
roughly 344 and change at the moment. So we are on a path to 
316. If for whatever reason circumstances require that we 
arrest that dissent somewhere short of that, there will have to 
be money back in the budget beginning in 2009 to allow that to 
happen. But we would only be interested in that if it does not 
put at risk what we think is the most critical thing, which is 
our recapitalization program.
    Dr. Snyder. Dr. Chu, do we have a proposal coming with 
regard to the high-tempo pay, ops-tempo pay for individuals? Is 
there something coming from you all on that?
    Dr. Chu. No, sir. We think we possess sufficient authority 
with existing statutes to deal with that issue. We are, I will 
be candid in acknowledging, debating what is the right way to 
do this. We have not made a decision yet.
    Dr. Snyder. And one of the issues that has been talked 
about a lot in the past in this committee, based on things that 
have been reported publicly and that we hear privately has been 
recruiter misconduct. What is your current thinking and any 
comments any of the rest of you have with regard to where we 
are at with regard to recruiter misconduct, either criminality 
or inappropriate behavior?
    Dr. Chu. I think we regret any incident of recruiter 
misconduct. We do owe you a report on certain issues attached 
to that, which is due in approximately a month and a half, if I 
recall correctly.
    Dr. Snyder. March 1st. Is it March 1st?
    Dr. Chu. March 1st, okay, a week and a half.
    Dr. Snyder. I may be wrong.
    Dr. Chu. But we will try to render that in a timely manner. 
I do think that we have in place good safeguards against such 
misconduct. As I said, it is regrettable even if there is one 
single instance of such misconduct, so I don't want to defend 
any such misconduct. I do think the rate is at relatively low 
levels.
    General Rochelle. Sir, I would only add that any case of 
recruiter misconduct is indefensible, and it injures no one 
more deeply than the 99.9 percent of great recruiters out there 
who are doing it the right way, the hard way, every single day.
    I know that the leadership takes care of every single 
incident that is proven and that that is done both swiftly and 
is taken very, very seriously.
    Admiral Harvey. Sir, a couple of the questions you have 
asked really come together and bear on this, and I think it is 
really important. The environment out there is getting tough, a 
lot tougher, and will continue to be so. If we ask people to do 
more with less, that is where you get into trouble. That is why 
we are increasing the number of recruiters out there, so that 
when we give them a goal to get, it is realistic, it is 
achievable within their professional abilities. And we don't 
try to play a game where you push them beyond what reality 
would yield and then that is when you induce a problem 
downstream that gets you into that place that we won't go to.
    General Rochelle has it exactly right. The people who 
suffer most from a recruiter misconduct, other than the 
individual this misconduct is perpetrated upon, is the service. 
These recruiters are our face to the families.
    Dr. Chu represented we not only have a fight with the youth 
to get them into our service, but also the influencers. And so 
any account of misconduct really hurts us in that battle, and 
so we react very strongly to that in terms of I have reviewed 
the code of conduct we give our recruiters down at our 
introductory course in Pensacola.
    Admiral Kilkenny has gone over with me what he does in each 
district that he visits, when he visits them. We have the 
standard we expect of a successful petty officer of the United 
States Navy. So there is no one more energized or agitated 
about this than the people you see at this table. We are the 
ones who not only have to make sure it happens, but we are the 
ones who lose doubly when it does happen.
    So I think we have got steps in progress. As Dr. Chu 
alluded to, better reporting, clearly. We have a lot of people 
out there on independent duty who carry a very heavy load for 
us. We are screening them to make sure they are ready for that 
kind of duty and we are giving them the resources they need to 
perform as we expect them to do, so we are approaching this on 
a multitude of fronts, sir.
    General Coleman. I would like to echo that, sir, as what 
everyone said here. Every recruit, every potential recruit that 
walks into a Marine Corps recruiting station or is visited by a 
Marine Corps recruiter deserves the utmost dignity and respect 
and that is the way he or she will be treated, sir.
    General Brady. Dr. Snyder, if I could make a couple of 
comments, I first of all want to echo what my colleagues have 
said. They have said it extraordinarily well. We are all in 
relatively--it varies from service to service--tough recruiting 
environments. Occasionally I read and am told that the Air 
Force is in a recruiting holiday.
    Brigadier General Suzanne Vautrinot would find that--that 
would come as a great surprise to her if I told her that. We 
are after the talent in America, and it is going to be tougher 
and tougher for us to get them.
    Congressman Davis asked, are bonuses important? Absolutely 
they are important. Absolutely they are important to all of us. 
But there is one thing that we haven't said and I think is 
important for us to say and it gets to Congressman McHugh's 
comment about waivers. When we grant a waiver or consider a 
waiver, it almost invariably in the Air Force, and I suspect it 
is the same in the other services, it comes as a result of a 
conversation with those young people.
    And the information we got, we got from them. I think it 
speaks in eloquent ways to the integrity of the young people 
that are coming in, that they are sharing this with us at some 
risk to their future service. So they are having this great 
conversation with us about them and things they have done in 
their lives. And I think it is important that we make that 
point and we are making an assessment. The waivers are not 
automatic. They are certainly not in the Air Force and I am 
very confident they are not in the other services.
    But they come as the result of some self disclosure from 
the great young men and women of America who come into the 
recruiting places.
    Dr. Snyder. Mr. McHugh.
    Mr. McHugh. Mr. Chairman, let me play off a question you 
posed to General Brady about the ability of the Air Force to 
meet its challenges in this new environment vis-a-vis a growing 
force in the Army by going over to Admiral Harvey.
    Admiral, in fiscal year 2004, the Navy projected its end-
strength to be, at the end of 2009, 365,900. In that 2004 year, 
you then revised the end-strength estimate for 2009 to be 
357,400. In 2005, the revised end-strength for 2009 became 
345,300 and then 2006, you revised the 2009 end-strength again 
to 330,000 and now in 2007 you have revised your end-strength 
projections again, to go down to 328,400 in 2008 and 322,200 by 
2013.
    I am wondering, where do we begin to settle on an end-
strength number? What seems to be the challenge here? And, 
equally important is how are you accommodating your challenges 
that will be associated with your sister force and brother 
force in the Marines, given their end-strengths growths, 
whether it is in medical personnel, chaplains or whichever?
    Admiral Harvey. Well, first off, if we assume that the full 
end-strength plus-up to the Marine Corps does occur, we have 
estimated what our requirement will be for that, and that is 
programmed into the 2008 and out budget. So we have built into 
the program what we call blue and supportive green that 
supports the end-strength increase of the Marine Corps. So that 
is done, sir, and we think we have a very good handle on what 
that is across the board, and we have got that accommodated.
    But, to your other question, form follows function. The 
years you highlighted were the years where the Navy was trying 
to come to grips with what is the size of the future fleet? And 
I think if we were sitting in another one of the subcommittees 
off this full committee, you would have heard that same 
question posed perhaps to Admiral Clark and then incoming 
Admiral Mullen, that your shipbuilding plan has changed every 
year. The form follows function. Our personnel plan must 
support the future fleet size.
    Well, one of the things I had the great benefit of when I 
came into this job was that Admiral Mullen has led the effort 
and developed what is the fleet of the future that we are 
aiming for now? And so it is about 313 ships, about 3,800 to 
4,000 tactical aircraft. And that, with the completion of the 
last piece of the BRAC process, gives me the overall structure 
that we have to support in our manpower program.
    So I am quite confident that what we have brought forward 
to you in 2008, that we are going to lead to this final end-
strength figure of about 322,000, is what we need to do the 
mission that the Nation expects this Navy to do with the fleet 
structure we expect to have of about 313 ships and about 3,800 
tactical aircraft.
    Mr. McHugh. General Coleman, do you feel comfortable with 
that? You are going to get where you need to be?
    General Coleman. Yes, sir.
    Mr. McHugh. I am sure the Marine Corps was an integral part 
of those calculations, Admiral.
    Admiral Harvey. Absolutely, sir. General Amos was the first 
one, as soon as that plus-up was authorized, asked the 
question, okay, what are we going to get to help make it work 
from your end?
    We had that dialogue, we agreed on what the number is, and 
that number has been programmed, sir.
    Mr. McHugh. Okay, good. Thank you. You raised the point, 
you said blue supports green. All of us on this panel have been 
talking about blue into green, a big program to try to take 
advantage of some great people, but now the Army is changing 
uniforms. What is it, blue into deep blue, or we have to rename 
it?
    Admiral Harvey. We will be able to keep up with them, sir, 
no matter what color they end up in.
    Mr. McHugh. All right, good enough.
    Mr. Chairman, I would thank you for this. Let me just make 
my normal year-end comment, and it does not have anything to do 
with the authorities of the gentlemen at the table, but it does 
have a lot to do with what they are changed with doing and do 
so very well, and that is the budget structure for recruiting 
and retention.
    I continue to be deeply troubled by a budget process that 
relies so heavily upon supplemental funding. We are sitting 
here right now and really find it almost impossible to talk 
about real numbers on recruiting and retention--forget 2008, in 
the 2007 supplemental. And the timing of these approvals, when 
they get to the Congress, are critical, and of course it is 
exacerbated by the fact that it is not built into the base 
budget.
    So I would be remiss if I didn't, as I have in each of the 
last five years, make my plea to this Administration and I 
assume subsequent Administrations to do everything we can to 
build our recruiting and retention budgets into the base 
budget.
    Thank you, Mr. Chairman. Yield back.
    Dr. Snyder. I guess back to Mr. Kline's concern about 
advertising budgets and everything else. You get more bang for 
the buck with advertising if you can know you have got the 
money ahead of time.
    Mr. Murphy. Okay.
    Mr. Kline.
    Mr. Kline. I thought I was going to have to defend myself 
there for just a minute. Are you yielding to me for a moment?
    Dr. Snyder. You are up for five minutes.
    Mr. Kline. Well, I don't need five minutes.
    Dr. Snyder. That is what you said the last time.
    Mr. Kline. No, I didn't. I will try to take six.
    I just was thinking about the discussion we were having 
earlier about officer accessions and, Dr. Chu, you gave a very 
good response and to the sort of four sources. And you had a 
response to the chairman, I think, about well, we are a little 
bit concerned about some of the ROTC programs at some of the 
more expensive schools.
    Can I just ask you or any of them sort of across the board, 
do you see any problem areas in any of those programs, but 
particularly the academies and ROTC and getting enough 
qualified people who want to get in those programs?
    Dr. Chu. I should let my colleagues answer. My assessment 
of the overall data is that, just as Admiral Harvey said, we 
had an increase at the academies, specifically, which is the 
easiest indicator to gather--we had an increase in interest 
after 9/11, more applicants to the programs. They have come 
back down, just as we said.
    Mr. Kline. Excuse me. We see that, of course, in our 
offices. I think it would reflect probably the same, but I am 
not taking that as an indication of trouble. We have splendid 
young men and women who are coming to apply.
    I am just asking, do you use a warning area out there in 
young men and women applying to either the academies or the 
ROTC program? That is all I am asking.
    Dr. Chu. Not that I have seen, but I defer to my 
colleagues.
    General Rochelle.
    General Rochelle. Sir, the quality of the young men and 
women applying to the Military Academy is as high as we have 
ever seen it. We have increased recently by, I believe, 100. We 
are very limited on our capability at the academy to increase 
the intake. But we have increased it recently.
    Army ROTC will have to grow. As we grow the Army, the 
brigade combat team structure, it does require that we increase 
the number of officers from Army ROTC. We have some concerns.
    Admiral Harvey. Sir, the numbers and quality overall look 
good, academy and ROTC. As I referenced in my remarks, though, 
we are focused on the shaping of that force and the increased 
diversity demands that we want to see in our service that 
reflect in the changing demographics of the Nation.
    But I would say that as strong as we are at the ROTCs and 
the academies, to a point that Congressman Murphy made in 
reference to his own experience, it is at the professional 
schools--medical school, dental school, nursing school, law 
school, that I see a really terrific battle ahead in terms of 
propensity to join the service.
    I think there is one common element among all four of us 
here is that our medical programs that we are going for, we are 
not meeting the goals that we have set for ourselves. And so it 
is at the professional schools, where their demographics have 
changed dramatically and an increase in numbers of women 
graduates who are less propense even than the normal graduate 
to join the military. So that is the focus area for us, sir. I 
know it is not your question, but I did want to call your 
attention to it, because it is a serious one that will be with 
us for some time, sir.
    Mr. Kline. Thank you.
    General Brady. Our assessment would be exactly the same. As 
Admiral Harvey said, there was a peak post-9/11. We are pretty 
much down in academy applications, et cetera, to the pre-9/11. 
We still have many more qualified applicants than we can 
accept, but we share the same concerns about professional 
schools.
    General Coleman. Sir, our recruiting and retention of 
officers is very well. There are no concerns, and I would 
submit to you that if we could talk the Navy into allowing more 
Marines to come out of the academy, we would fill the school.
    Mr. Kline. I think I am still on that board of visitors, 
pending the new speaker's confirmation. We will have that chat. 
I yield back.
    Dr. Snyder. I am going to do another five minutes, John, if 
that is all right with you all.
    Dr. Chu, going back to the foreign language issue, you used 
the words it was central, in your words, foreign language is 
central to the modern war fighter, and I think that is true. We 
talk about a Marine always being a rifleman, and I suspect now 
we say a Marine is always a rifleman and somehow the ability to 
operate a laptop.
    But I don't think we are at the point yet in the military 
where a foreign language really is central like a rifle is to a 
Marine, and I suspect that is something that we are going to be 
working on for some time to come, exactly what that means.
    For example, I have suggested this before, not entirely 
tongue in cheek, but I have always thought that incoming 
recruits ought to be assigned a foreign language in boot camp, 
and that is it. Whether they are in the military for 3 years or 
25 years, they will continue, they will have an expectation 
that wherever they are, we have got the ability with computers 
and all, if they are sitting in Korea, they can still be 
working on their Farsi, whatever it is that they are assigned.
    And, at some point, that will be of value to us as a 
Nation. When we think of Marine Corps tours rotating every 
seven months now, I mean, who are we kidding about the ability 
of someone to really pick up on language and culture in that 
kind of a rotation. But I think this is something, I know, that 
there are a lot of Members of Congress that are very interested 
in exploring and recognizing that we are going to be fumbling 
around.
    It is not just a military problem. Just like the issues 
that we have with paying for healthcare in the military, it is 
a societal problem. And one of our abilities--one of the 
challenges we have as a Nation, our ability to compete in 
globalization. We have so many of our young folks, we are so 
far behind foreign language skills compared to the rest of the 
world. I don't know if there are some things that we can help 
with as far as exploring other approaches or experiments. I 
guess we don't call them experiments.
    Dr. Chu. Well, you have, I think, touched on the very 
issues we are attempting to work. We recognize it is going to 
be a considerable journey to get to the point where it really 
is in fact central, and that is not just a goal, which is the 
present situation. I would add one of the services is doing 
something like you have described, making them choose early on 
in their careers and then continue with that choice.
    But, to your larger point about how it is a societal issue, 
we agree. We are willing to put the Department's money--and you 
have supported us in that, we are grateful for that--on the 
line to start changing the American landscape. I have been 
impressed at how advocacy does make a difference, just as you 
are doing this evening in the program that you mentioned, just 
having the Department cosponsor with the University of Maryland 
a conference on what we should be doing here caused a program 
in California to start--pipeline Chinese program to start, 
simply because we said there is going to be a market for you 
out there, that your young people, if they do this, will have a 
benefit. And I think it is part of our responsibility.
    Where in your larger responsibility for the overall for the 
budget, you can help us, is an area where I think as a Nation 
we fell short last year. The Administration did ask for support 
in Department of Education for the so-called pipeline grants, 
did not get it out of the appropriations process. Now, you gave 
it to us in Defense, and we will proceed with those grants and 
we need to renew that effort. Because, long term, that really 
is a Department of Education responsibility and Defense 
shouldn't be doing the whole thing, shouldn't really be in 
charge, either. We don't seek to be in charge.
    Some of this is just simple, good public Administration. 
So, for example, we have required the military departments now 
to survey all their uniformed--and we will be doing soon the 
same thing for field personnel--simply to ask them, what 
language competence do you have?
    The Navy, we are very impressed, Admiral Harvey came back, 
the Navy had reported over 1,000 who self reported some degree 
of competence in one of the African languages, quite an 
extraordinary potential inventory.
    Now, in addition, as you know, we are paying an incentive 
to those who take the necessary tests and demonstrate a level 
of proficiency in that test a modest stipend to maintain that 
proficiency. And that is proving a powerful incentive to get 
people to step forward, get people to take the test and show it 
is not just that you claim you can speak X, you really have the 
following degree of competency.
    So I think we can move forward in less than a generation. I 
don't think this is forever, but it is not one year. I 
acknowledge that. And we are still at the early stages, as 
General Brady said, of deciding, well, what do we want to have? 
We have polled now the combatant commanders, every one of them, 
with a template the joint staff approved, to say, okay, which 
billets in your command ought to have which languages? So we 
start to create for the military services a set of targets to 
aim at.
    It is not enough and, as General Brady said, I agree, we 
haven't fully decided exactly what the end point should look 
like. Should we be like the Dutch, where any professional has 
to speak a major foreign language? And it is typically English. 
Is that our proficiency level? We are building now a 
foundation, because the literature argues that if you know some 
of a foreign language, even one relatively close to your native 
language, your ability to learn the next foreign language is 
enhanced, and we are putting predeployment packages out there.
    Now, they are rudimentary, but I think within the limits 
that time permits, they are helpful. So we are taking a number 
of steps. We recognize it is a national problem. We are willing 
to contribute to the solution of a national problem both by 
leadership with funding, if you permit us, and with exploring 
new avenues for success.
    Dr. Snyder. Mr. McHugh, any further questions or comments?
    Mr. Murphy, any further questions?
    We appreciate you all being here this afternoon. Did 
anybody have any closing comments you all would like to make?
    Dr. Chu. Thank you, Mr. Chairman.
    Dr. Snyder. The men's room is right back this way. 
[Laughter.]
    Thank you all very much.
    The hearing is adjourned.
    [Whereupon, at 4:10 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           February 15, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 15, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7653.001
    
    [GRAPHIC] [TIFF OMITTED] T7653.002
    
    [GRAPHIC] [TIFF OMITTED] T7653.003
    
    [GRAPHIC] [TIFF OMITTED] T7653.004
    
    [GRAPHIC] [TIFF OMITTED] T7653.005
    
    [GRAPHIC] [TIFF OMITTED] T7653.006
    
    [GRAPHIC] [TIFF OMITTED] T7653.007
    
    [GRAPHIC] [TIFF OMITTED] T7653.008
    
    [GRAPHIC] [TIFF OMITTED] T7653.009
    
    [GRAPHIC] [TIFF OMITTED] T7653.010
    
    [GRAPHIC] [TIFF OMITTED] T7653.011
    
    [GRAPHIC] [TIFF OMITTED] T7653.012
    
    [GRAPHIC] [TIFF OMITTED] T7653.013
    
    [GRAPHIC] [TIFF OMITTED] T7653.014
    
    [GRAPHIC] [TIFF OMITTED] T7653.015
    
    [GRAPHIC] [TIFF OMITTED] T7653.016
    
    [GRAPHIC] [TIFF OMITTED] T7653.017
    
    [GRAPHIC] [TIFF OMITTED] T7653.018
    
    [GRAPHIC] [TIFF OMITTED] T7653.019
    
    [GRAPHIC] [TIFF OMITTED] T7653.020
    
    [GRAPHIC] [TIFF OMITTED] T7653.021
    
    [GRAPHIC] [TIFF OMITTED] T7653.022
    
    [GRAPHIC] [TIFF OMITTED] T7653.023
    
    [GRAPHIC] [TIFF OMITTED] T7653.024
    
    [GRAPHIC] [TIFF OMITTED] T7653.025
    
    [GRAPHIC] [TIFF OMITTED] T7653.026
    
    [GRAPHIC] [TIFF OMITTED] T7653.027
    
    [GRAPHIC] [TIFF OMITTED] T7653.028
    
    [GRAPHIC] [TIFF OMITTED] T7653.029
    
    [GRAPHIC] [TIFF OMITTED] T7653.030
    
    [GRAPHIC] [TIFF OMITTED] T7653.031
    
    [GRAPHIC] [TIFF OMITTED] T7653.032
    
    [GRAPHIC] [TIFF OMITTED] T7653.033
    
    [GRAPHIC] [TIFF OMITTED] T7653.034
    
    [GRAPHIC] [TIFF OMITTED] T7653.035
    
    [GRAPHIC] [TIFF OMITTED] T7653.036
    
    [GRAPHIC] [TIFF OMITTED] T7653.037
    
    [GRAPHIC] [TIFF OMITTED] T7653.038
    
    [GRAPHIC] [TIFF OMITTED] T7653.039
    
    [GRAPHIC] [TIFF OMITTED] T7653.040
    
    [GRAPHIC] [TIFF OMITTED] T7653.041
    
    [GRAPHIC] [TIFF OMITTED] T7653.042
    
    [GRAPHIC] [TIFF OMITTED] T7653.043
    
    [GRAPHIC] [TIFF OMITTED] T7653.044
    
    [GRAPHIC] [TIFF OMITTED] T7653.045
    
    [GRAPHIC] [TIFF OMITTED] T7653.046
    
    [GRAPHIC] [TIFF OMITTED] T7653.047
    
    [GRAPHIC] [TIFF OMITTED] T7653.048
    
    [GRAPHIC] [TIFF OMITTED] T7653.049
    
    [GRAPHIC] [TIFF OMITTED] T7653.050
    
    [GRAPHIC] [TIFF OMITTED] T7653.051
    
    [GRAPHIC] [TIFF OMITTED] T7653.052
    
    [GRAPHIC] [TIFF OMITTED] T7653.053
    
    [GRAPHIC] [TIFF OMITTED] T7653.054
    
    [GRAPHIC] [TIFF OMITTED] T7653.055
    
    [GRAPHIC] [TIFF OMITTED] T7653.056
    
    [GRAPHIC] [TIFF OMITTED] T7653.057
    
    [GRAPHIC] [TIFF OMITTED] T7653.058
    
    [GRAPHIC] [TIFF OMITTED] T7653.059
    
    [GRAPHIC] [TIFF OMITTED] T7653.060
    
    [GRAPHIC] [TIFF OMITTED] T7653.061
    
    [GRAPHIC] [TIFF OMITTED] T7653.062
    
    [GRAPHIC] [TIFF OMITTED] T7653.063
    
    [GRAPHIC] [TIFF OMITTED] T7653.064
    
    [GRAPHIC] [TIFF OMITTED] T7653.065
    
    [GRAPHIC] [TIFF OMITTED] T7653.066
    
    [GRAPHIC] [TIFF OMITTED] T7653.067
    
    [GRAPHIC] [TIFF OMITTED] T7653.068
    
    [GRAPHIC] [TIFF OMITTED] T7653.069
    
    [GRAPHIC] [TIFF OMITTED] T7653.070
    
    [GRAPHIC] [TIFF OMITTED] T7653.071
    
    [GRAPHIC] [TIFF OMITTED] T7653.072
    
    [GRAPHIC] [TIFF OMITTED] T7653.073
    
    [GRAPHIC] [TIFF OMITTED] T7653.074
    
    [GRAPHIC] [TIFF OMITTED] T7653.075
    
    [GRAPHIC] [TIFF OMITTED] T7653.076
    
    [GRAPHIC] [TIFF OMITTED] T7653.077
    
    [GRAPHIC] [TIFF OMITTED] T7653.078
    
    [GRAPHIC] [TIFF OMITTED] T7653.079
    
    [GRAPHIC] [TIFF OMITTED] T7653.080
    
    [GRAPHIC] [TIFF OMITTED] T7653.081
    
    [GRAPHIC] [TIFF OMITTED] T7653.082
    
    [GRAPHIC] [TIFF OMITTED] T7653.083
    
    [GRAPHIC] [TIFF OMITTED] T7653.084
    
    [GRAPHIC] [TIFF OMITTED] T7653.085
    
    [GRAPHIC] [TIFF OMITTED] T7653.086
    
    [GRAPHIC] [TIFF OMITTED] T7653.087
    
    [GRAPHIC] [TIFF OMITTED] T7653.088
    
    [GRAPHIC] [TIFF OMITTED] T7653.089
    
    [GRAPHIC] [TIFF OMITTED] T7653.090
    
    [GRAPHIC] [TIFF OMITTED] T7653.091
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                           February 15, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. Do you have an apples-to-apples comparison between the 
services on attrition?
    Dr. Chu. This chart reflects the average first term attrition of 
active duty personnel by Service for the period 1985 through 2005.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Dr. Snyder. Given that the depleted level of the active Army's 
delayed entry program at the beginning of fiscal year 2007 seems to put 
the recruiting program at greater risk of failure, how significant is 
the level of risk and what is the Army and DOD doing to reduce the 
level of risk? What does the Congress need to do to assist in reducing 
the level of risk?
    Dr. Chu. Recruiting was successful in FY 2006, despite having an 
entry pool of 12.4% at the start of the fiscal year. The Army's goal is 
to recruit 35% of its annual mission prior to the onset of the fiscal 
year in the delayed entry program. A moderate level of risk is 20% or 
greater. Entry pool levels less than 20% pose a significant challenge 
to mission success. An inadequate entry pool increases stress on the 
recruiting force, constrains the Army's capabilities, and increases 
recruiting costs.
    To offset the shortfall in the FY 2006 entry pool, the Army 
increased the size of its recruiter force, increased incentives, began 
pilot programs, and refined business practices. As a result, the FY 
2007 entry pool was 15.1 %. We are working with the Army on policy and 
resource adjustments. These include adding processing dates at Military 
Entrance Processing Stations, encouraging funding of enhanced strategic 
media outreach (Army Strong campaign), supporting increased funding of 
enlistment incentive programs, and continuing to seek increases in the 
recruiter force for the FY 2007 recruiting effort. Fundamental in 
addressing these challenges is the need to sufficiently resource 
recruiting and retention to achieve numerical and quality goals. Robust 
funding for recruiting and retention is essential, and the Global War 
on Terror supplemental is critical to reducing risk and achieving 
recruiting goals.
    Dr. Snyder. Will the change in policy terminating the 24-cumulative 
month limit on mobilization of reservists have an affect on the 
retention in the reserve components?
    Dr. Chu. The new guidance governing Reserve component mobilizations 
prescribed by the Secretary of Defense did, in effect, eliminate the 
``24-cumulative'' month policy, but it also established other tenets, 
including:

    <all>  Limiting Reserve component mobilizations to a maximum of one 
year at any time.

    <all>  Enhancing predictability by establishing the ``one year 
mobilized to five years demobilized ratio.''

    <all>  Strongly emphasizing proper employment of hardship waiver 
programs.

    <all>  Minimizing the use of ``Stop Loss.''

    <all>  Managing the mobilization of ground forces on a unit basis.

    Taken together, these policy changes have been designed to reduce 
stress on the force, enhance the prudent and judicious use of our 
Reserve forces, and provide significantly more predictability for 
members, their families, and employers. Accordingly, the policy changes 
should have a positive effect on retention in the Reserve components.
    Dr. Snyder. Are there any plans to extend the G-RAP program to the 
other Army components and to the other services?
    Dr. Chu. Yes. The Army Reserve has just recently initiated a 
similar program, and the program will be briefed to the other military 
services in the coming months.
    Dr. Snyder. Will the change in policy terminating the 24-cumulative 
month limit on mobilization of reservists have an affect on the 
retention in the reserve components?
    General Rochelle. For the Army Reserve (AR), the effect on 
retention is unknown at this time; however, the AR has experienced high 
retention rates for Soldiers previously mobilized. The AR has 
distributed an extensive Strategic Communications (STRATCOM) package to 
commanders in the field to effectively communicate the new policy to 
all Soldiers. Additionally, implementation of the AR manning strategy 
to support Army Force Generation (ARFORGEN) will provide increased 
predictability to Soldiers, families, and employers. As part of the 
manning strategy, the AR is implementing targeted monetary and non-
monetary incentives to aid in retention of key skills and grades. In 
the near term, a compensation package for breaking dwell time in order 
to remobilize AR Soldiers is critical to continued retention success.
    The Army National Guard (ARNG) as an operational force, must 
provide manned and ready units. The cornerstone for achieving this 
resides in effectively managing the force to increase the number of 
qualified Soldiers. Recruiting and retaining Soldiers during war time 
remains a challenge. Specifically the change in policy to terminate the 
24-cumulative month limit on mobilization does have a minor affect on 
recruiting and retention. This impact is largely overcome by highly 
trained Recruiting and Retention Non-Commissioned Officers (RRNCOs) in 
the field. All RRNCOs are trained in comprehensive communication skills 
in their Military Occupations Specialty (MOS) training to address the 
challenges of war time recruiting and retention. The overall impact on 
retention is yet to be determined but loss rates may increase due to 
multiple and prolonged mobilizations and deployments.
    Dr. Snyder. Are there any plans to extend the G-RAP program to the 
other Army components and to the other services?
    General Rochelle. The Army is currently taking steps to expand the 
G-RAP program to the United States Army Reserve. Expansion of the G-RAP 
program to other services is an action best addressed by the Office of 
the Secretary of Defense (OSD) because such an initiative exceeds the 
purview of Headquarters, Department of the Army.
    Dr. Snyder. Given that the depleted level of the active Army's 
delayed entry program at the beginning of fiscal year 2007 seems to put 
the recruiting program at greater risk of failure, how significant is 
the level of risk and what is the Army and DOD doing to reduce the 
level of risk? What does the Congress need to do to assist in reducing 
the level of risk?
    General Rochelle. The Army's goal is to recruit 35% of its annual 
mission (Delayed Entry Pool) prior to the onset of the fiscal year, 
anything less than this could present a risk. In Fiscal Year 2006, the 
starting entry pool was 12.4% and the Army still managed to have a 
successful recruiting year. In anticipation of the shortfall, the Army 
increased the size of its recruiter force, increased incentives, began 
pilot programs and refined business practices; as a result, it began 
FY07 with a 15.1% entry pool. We are working with the Office of the 
Secretary of Defense on further policy and resource adjustments to 
include: adding processing dates at Military Entrance Processing 
Stations; encouraging funding of enhanced strategic media outreach 
(Army Strong Campaign, etc.); supporting increased funding of 
enlistment incentive programs, and continuing to seek increases in the 
recruiter force for the FY 2007 recruiting effort. Sufficient resources 
for recruiting and retention are fundamental to addressing the 
challenges to achieve numerical and quality goals and in preventing 
undue stress, cost and capability constraints that an inadequate entry 
pool can cause. Full funding for these programs must continue and the 
GWOT supplemental is essential to achieve recruiting and retention 
goals.
    Dr. Snyder. What was done during the last six months of fiscal year 
2006 and the first three months of fiscal year 2007 to make Air 
National Guard recruiting successful and why wasn't corrective action 
taken at an earlier date? What role in the improved posture of the Army 
National Guard recruiting program can be attributed to the Guard 
Recruiter Assistant Program (G-RAP)?
    General Rochelle. The Guard Recruiting Assistance Program (G-RAP) 
is designed for individuals who voluntarily apply to serve as part-
time, contracted, Recruiting Assistants (RA). Each RA cultivates 
quality potential Soldiers from within their individual sphere(s) of 
influence and can earn up to $2000 for each new enlistee who reports to 
Initial Entry Training (IET).
    Since the inception of the G-RAP program in December of 2005, the 
Army National Guard (ARNG) has enlisted a total of 30,802 Soldiers 
through this enlistment enabler. The ARNG enlisted 15,511 Soldiers in 
fiscal year (FY) 2006; the ARNG has enlisted 15,291 Soldiers in FY 
2007, as of 10 April 2007. At the present moment, G-RAP accessions 
account for almost half of the prior service and non-prior service 
enlistments nationally. This growth exceeded all expectations and is a 
testament to the importance of the program in reaching strength goals.
    The contribution of the G-RAP program to the improved strength 
posture of the ARNG is immense. Without the G-RAP program, the ARNG 
would not have achieved 350,000 end-strength. This program allows the 
ARNG to take advantage of our greatest asset, Citizen Soldiers serving 
their State and Nation that are embedded in local communities. It is 
through their contributions, sacrifice, and hard work that the ARNG 
continues to meet manpower objectives in this time of war.
    The uncertainty brought about by Base Realignment and Closure 
decisions, implementation of Total Force Integration initiatives, and 
required changes to existing manpower documents all negatively impacted 
the Air National Guard Recruiting and Retention Program. Much of the 
success in the Air National Guard Recruiting and Retention Program is a 
result of implementing the Guard Recruiter Assistant Program; a program 
which has been very successful in the Army National Guard. 
Additionally, toward the end of fiscal year 2006, new manpower 
documents were issued to the field units. This mitigated some of the 
uncertainty derived from Base Realignment and Closure decisions.
    Dr. Snyder. Will the change in policy terminating the 24-cumulative 
month limit on mobilization of reservists have an affect on the 
retention in the reserve components?
    Admiral Harvey. Unknown, but minimal effects are anticipated. 
Without sufficient quantitative data to support this response, much is 
left to speculation since this change in policy is relatively recent 
(two months) and this change was made in conjunction with six other 
major policy changes (in the 19JAN07 DoD Utilization of the Total Force 
memorandum), each of which may have either positive or negative effects 
on retention. Overall, the combined effects of the changes being 
implemented from SECDEF's 19JAN07 memorandum will most likely be 
increased stability in the predictable, periodic rotation of SELRES 
personnel, and that should be expected to have a positive effect on 
retention. However, until the policy guidance is fully implemented and 
an opportunity to observe/analyze retention trends is afforded, a more 
definitive answer cam not be crafted. Furthermore, irrespective of this 
policy, the Navy has yet to involuntarily mobilize any Sailors for a 
second time and does not intend to do so pursuant to the new policy for 
any Sailors until the use of all volunteers and ``first-time 
mobilized'' Sailors has been exhausted and sufficient ``dwell'' time 
has expired (which is not anticipated to occur for the first time until 
2008).
    Dr. Snyder. What is the continuing problem with recruiting in the 
Navy Reserve and why hasn't there been management action to make the 
program successful? If the Navy Reserve recruiting problem is related 
to force structure reductions, why hasn't the recruiting goal been 
adjusted?
    Admiral Harvey. Navy continues to experience difficulty in 
attaining sufficient numbers of prior service members to meet 
established requirements largely due to the fact that nearly 70 percent 
of our Reserve accession mission is comprised of personnel departing 
active duty, many of whom are not inclined to affiliate with the 
Reserve upon leaving active duty. Additionally, many of the skills 
required in the Reserve component are the same as those needed in the 
active component; consequently, the success we have enjoyed in 
retaining these individuals on active duty diminishes the number 
available for Reserve affiliation.
    To mitigate these shortfalls in the near-term, we increased the 
FY06 non-prior service accession mission by 13 percent from the 
original goal, representing 34 percent of the total mission. Non-prior-
service goal was increased again for FY07 by almost 50 percent over 
original plans. In doing so, Navy incurs certain risk associated with 
readiness declines resulting from a reserve component force-mix that is 
less senior, less trained and less experienced than required to meet 
minimum readiness requirements. We also implemented a one or two-year 
mobiliziation deferment policy, increased advertising and expansion of 
efforts to attract Sailors from current source ratings into critical 
ratings directly supporting the Global War on Terrorism (GWOT) and 
enhanced many special pays to target personnel with required skills to 
affiliate with, and then remain in, the Selected Reserve. All 
incentives require a drill obligation from three to six years. This 
will increase retention in those critical skill sets attained.
    Additionally, I have directed the following actions to improve 
mission accomplishment:

      (1)  A Fleet-to-NOSC (Navy Operational Support Center) program 
which streamlines the process for immediately enlisting a separating 
active duty Sailor into the Reserve.

      (2)  New Accession Training (NAT) and Prior Service mission 
flexibility changes to meet critical skill requirements and accelerate 
reserve personnel through the training pipeline.

      (3)  Implementation of a pilot to retrain prior service Sailors 
to gain the needed skill sets for Reserve GWOT ratings.

      (4)  Revitalization of direct procurement enlistment programs to 
offer commensurate advanced pay grade to Reserve recruits in 
recognition of acquired civilian skills.

      (5)  Expanded incentives focused on GWOT critical skill sets for 
both officer and enlisted programs. All incur a three to six year drill 
obligation.

    Reserve recruiting problems are not related solely to force 
structure reductions. The improving economy and eroding public support 
for the war in Iraq have contributed to a lower propensity to enlist in 
the Reserve. While Navy has decreased the size of the active duty 
force, thereby increasing the number of personnel leaving active duty, 
the skills those personnel possess frequently do not coincide with 
those required of prior service Reserve accessions. So, despite the 
fact that overall Reserve strength is also declining, the recruiting 
mission continues to present significant challenges, particularly in 
specific critical skill areas. Until we can consistently meet both 
aggregate and specific skill Reserve accession goals, it would not be 
prudent to reduce the accession mission.
    Dr. Snyder. Given that the recruiting environment is equally harsh 
for all the services, is there any concern within the Navy that some of 
the recruiting incentives have been designated for use by the Army 
alone? What incentives do you believe should be made available to all 
the services?
    Admiral Harvey. Yes, Navy has concerns with the concept of 
recruiting incentives that are designated for use by the Army alone. 
The recruiting environment is becoming increasingly challenging for all 
services, and it is imperative that each of the Services has maximum 
latitude to address specific recruiting challenges. As Navy exits the 
glide slope and stabilizes end strength, it is critical that we have 
effective, flexible and competitive tools available to recruit and 
retain the right highly qualified Sailors to meet current and future 
requirements.
    Army-only incentives that Navy would like made available for all 
the services use includes:

    <bullet>  Reserve Referral Bonus payable to service members who 
refer candidates for enlistment with Reserve component.

    <bullet>  Enhanced Reserve Referral Bonus to be paid to any person, 
active, guard, reserve, retired, or civilian employees, who 
successfully refers a new recruit.

    <bullet>  Advanced authority to implement selected pilot projects.

    <bullet>  Recruiter ``Pay for Performance'' incentive program.

    Dr. Snyder. Will the change in policy terminating the 24-cumulative 
month limit on mobilization of reservists have an affect on the 
retention in the reserve components?
    General Brady. To date the 24-cumulative month policy has not 
appeared to impact the retention of our Airmen. It is difficult to 
predict how the recent change to the 24-consecutive month policy will 
impact the Air Force Reserve. Our AEF rotation model ensures that 
predictability, an important element in retention, is provided for both 
Active and Reserve component members. We have postured ourselves to 
utilize the total force in prosecuting the GWOT for the long haul.
    Dr. Snyder. Given that the recruiting environment is equally harsh 
for all the services, is there any concern within the Air Force that 
some of the recruiting incentives have been designated for use by the 
Army alone? What incentives do you believe should be made available to 
all the services?
    General Brady. While we support the Army getting these authorities 
to meet urgent Army recruiting shortfalls, we believe incentives in 
like ``hard-to-fill'' career fields such as Pararescue, Combat 
Controller, Explosive Ordnance Disposal (EOD), etc. should be the same 
throughout all components. It is especially important that authorities 
for accessions be extended, thus allowing each component to determine 
its own set of initiatives which best meets its individual requirements 
to recruit the right person for the right job. While the AF is meeting 
its enlisted recruiting goals, we are concerned with the future 
recruiting environment and the challenges in some specific specialties. 
After seeing these incentives in operation in the Army, we believe they 
should be extended to the AF.
    We have reviewed a complete list of current Army incentives. Of 
note, the Army offers recruits in critical specialties a Thrift Savings 
Program (TSP) that matches contributions. While we must continue 
research on the intricacies of the program (percentage of matching 
funds), we have little doubt a similar program could enhance our 
ability to fill critical Air Force skills. Additionally, the Army 
offers ``seasonal'' bonuses that allow them flexibility to ship 
recruits earlier, depending on the immediate need; these bonuses range 
from $3K to $15K. Traditionally the Air Force experiences difficulty 
making its recruiting mission from February through May (seasonal) each 
year. Implementing a ``seasonal'' bonus would aid our recruiting 
posture. Finally, the Army College Fund (ACF) supplements the 
Montgomery GI Bill (MGIB) and offers much larger dollar amounts for 
college ($36K+ for a two-year enlistment up to $72K+ for six or more 
years). The Air Force MGIB program, by contrast, offers the DOD 
standard of $40K+ for either a four or six-year enlistment.
    While we have highlighted only three Army specific bonuses, there 
are others that merit availability to all the services. As stated 
previously, identical career fields across the services and those 
critical, ``hard-to-fill'' skills should receive the same bonuses. We 
have also compared initial enlistment bonuses across the services. 
There are disparities.

INCENTIVES:

SUBJECT: Enlistment Incentives Changes Effective 2 March 2007.

1. This message supersedes USAREC MSG 07-045, dated 06 December 06. 
Subject: Enlistment Incentive Program Change Effective 07 December 
2006, USAREC MSG 07-075, dated 30 January 07 and USAREC MSG 07-079, 
dated 02 February 07.

2.References:

    a. HQDA Message, DAPE-MPA, Subject: Enlisted Incentive Program 
Changes Effective 02 March 2007. DAPE-MPA, 2-27-2007.

    b. HQDA Message, DAPE-MPA, Subject: Enlisted Incentive Program 
Changes Effective 9 February 2007. DAPE-MPA, 2-08-2007.

    c. HQDA Message, DAPE-MPA, Subject: Enlisted Incentive Program 
Changes Effective 30 January 2007. DAPE-MPA, 1-29-2007.

3. Thrift Savings Program (TSP) matching funds pilot program. Non-prior 
service enlistees with Tier I or II education credential that are TSC 
I-IIIB and elect to serve 5 or more years on active duty in a critical 
specialty listed in paragraph 18 with incentive level 1-4 may 
participate in the TSP matching funds pilot program. This incentive is 
in addition to any enlistment incentive that the applicant is otherwise 
qualified to receive. See USAREC message 07-001 for more information on 
this program.

4. Seasonal enlistment bonuses of $15000, $10000, $6000, or $3000 may 
be available to Non-Prior Service applicants.

    a. Non-Prior Service and DOS seasonal enlistment bonuses are 
available to TSC I-IIIA applicants with Tier I, NGYC, Home School (HS) 
or other Tier II, TSC I-IIIA that pass TTAS, selecting an incentivized 
MOS level 1-7 and the following MOS level 8: 15Q, 21D, 25N, 27D AND 31B 
as described in paragraph 18. This is for new contracts enlisting for 
three or more years. The REQUEST system will identify the availability 
of the bonus, the training seat priority, and the bonus amount. This 
bonus may be combined with all other incentives.
    b. Applicants receiving the seasonal bonus and later choosing to 
renegotiate their enlistment contract may lose the seasonal bonus if a 
priority training seat is not available. Applicants that renegotiate to 
an earlier ship date with the same MOS may retain the seasonal bonus.

5. 09L enlistment bonus: All NPS Applicants enlisting into 09L 
regardless of education level and TSC standards for a minimum four 
years term of service will be eligible for all cash bonuses. Applicants 
enlisting for ACF require at least TSC I-IIIB. Note: Activated IRR 
soldiers who hold MOS 09L and are approved for RA enlistment under the 
provisions of MILPER Message Number 05-143; subject: Enlistment of 
Mobilized United States Army Reserve (USAR) or Army National Guard of 
the United States (ARNGUS) soldiers into the Regular Army, issued:

06/16/2005 who are enlisting into the Regular Army for a period of four 
or more years will receive a bonus of $15,000. These applicants are not 
eligible for any other incentives.

6. Enlistment bonus for PS, RC to AC and B2G applicants enlisting as 
Skill Level 1:

    a. Prior Service and Blue to Green (B2G) applicants who select 
training or enlist in an MOS listed at levels 1-7 (include option 18) 
will receive the same bonus amount as NPS applicants. The Prior Service 
applicants must enlist for a term of service of three or more years, 
may not receive other enlistment bonuses (including ACF or LRP), and 
are subject to recoupment policies in AR 601-280.
    b. Active Duty RC soldiers who are approved for RA enlistment under 
the provisions of Milper Message Number 05-143; Subject: Enlistment of 
Mobilized United States Army Reserve (USAR) or Army National Guard of 
the United States (ARNGUS) soldiers into the Regular Army, Issued: 06/
16/2005 who select training or enlist in an MOS listed at level 1-7 
based on TOS will receive a bonus in the same amount paid to NPS 
applicants. These applicants are not eligible for any other incentives.

7. A Higrad bonus is authorized for TSC I-IIIB Non-Prior Service and 
days of service (options 3, 4, 19, 26, 40) applicants with 30 or more 
semester hours enlisting for 2 or more years into all MOS's. The Higrad 
bonus may be combined with other incentives.

    a. $2000 bonus is authorized for 30-59 semester hours of college.

    b. $4000 bonus is authorized for 60 or more semester hours of 
college.

    c. $5000 bonus is authorized for applicants with a two-year 
Associate Degree or equivalent.

    d. $6000 bonus is authorized for applicants with a four-year 
Bachelor degree or higher.

8. OCS Loan Repayment Program (LRP): LRP is authorized to all NPS OCS 
applicants.

9. College First: Applicants are eligible for MOS-related bonuses and 
MOS-related Loan Repayment Program (LRP) in effect at the time of MOS 
selection.
See Paragraph 15 for LRP requirement. Applicants are not eligible for 
the Army College Fund.

10. $6000 Airborne enlistment bonus and $4000 Ranger enlistment bonus 
are rescinded.

11. Army Civilian Acquired Skills Program (ACASP): A $5,000 enlistment 
bonus is authorized for Non-Prior Service or DOS applicants in TSC I-
IIIB with tier I education credential, enlisting for 3 or more years 
TOS in any ACASP MOS listed in paragraph 18.

12. A $5,000 enlistment bonus or repayment of qualifying student loans 
(principal and interest) up to $18,000 is authorized to national call 
to service program (NCSP) applicants. The bonus may not be combined 
with any other incentive and will be paid upon completion of the 15 
month active duty obligation. The NCSP bonus is available for the 
following MOS's: 11X, 13B, 13D, 13F, 13M, 13P, 13S, 13W, 15Q, 15R, 15T, 
15U, 19D, 19K, 21B, 21C, 21E, 21F, 21J, 21K, 21L, 21M, 21R, 21S, 21T, 
21U, 21V, 21W, 31B, 31L, 42A, 42L, 45B, 52C, 52D, 55B, 56M, 63B, 63S, 
63W, 73C, 74D, 88H, 88M, 88N, 91E, 91G, 91Q, 91R, 91S, 91T, 91W, 92A, 
92F, 92G, 92M, 92S, 92W, 92Y, and 96R.

13. The total bonus amount is limited to $6000 for a two year TOS (not 
authorized for TSC IIIB), $10,000 for a three year TOS ($20,000 max may 
be available on selected MOS's as identified in the Request System) and 
$40,000 for four or more years TOS. Applicants receiving an enlistment 
incentive and not completing their initial term of service will be 
subject to the re-coupment policies in AR 601-280. Re-coupment applies 
to enlistment bonus, seasonal, Higrad, airborne, or any and all other 
enlistment bonuses. However, Higrad and seasonal bonuses will not be 
subject to re-coupment if the soldier fails to complete training in the 
incentivized MOS or is reclassified to any other skill that is not 
incentivized as long as they remain in the army and complete their term 
of contracted service. Applicants selecting MOS 18X who fail any 
portion of their MOS qualification training will revert to 11X. They 
will receive the 11X bonus that was available at the time of 
contracting.

14. Initial payment of all bonuses will not exceed $10,000 and will be 
made upon arrival at first duty station. The remaining bonus amount to 
be paid upon graduation from basic or OSUT training in annual 
increments. Recruits for 18X will be paid upon successful completion of 
special forces assessment and selection (SFAS) course. Applicants not 
completing their initial term of service will remit any unearned 
portion of the enlistment bonus. This authority is not retroactive with 
the exception of soldiers enlisting for the OCS enlistment option as 
described in paragraph 8 above.

15. The Loan Repayment Program (LRP) is available to all NPS Tier I 
education credential, TSC I-IIIB (and OCS applicants as indicated in 
paragraph 8 above), enlisting for a minimum term of service no less 
than three years in an MOS as shown in paragraph 18. Term of service is 
dictated by the parent MOS. The maximum reimbursable loan amount is 
$65,000. LRP applicants are required to decline enrollment in the MGIB. 
Guidance Counselors need to brief applicants selecting LRP as an 
enlistment option IAW AR 601-210 Table 9-4. Applicants must choose the 
EB+LRP or ACF/LRP Only package from paragraph 18 below. However, LRP 
may be combined with the seasonal bonus, HG bonus, or ACASP if 
qualified. The LRP is not available for Days of Service applicants 
except in the following cases: Applicants who served on Active Duty for 
less than 180 days and were separated for medical or other non 
disciplinary reasons with an uncharacterized separation or separated 
under honorable conditions. In no casewill an applicant currently 
affiliated with the USAR or ARNG be enlisted for LRP.

16. Army college fund amounts (when combined with the MGIB) are in 
excess of $36,864 for two-year enlistments, $51,300 for three years, 
$62,100 for four years, $69,300 for five years, and $72,900 for six or 
more years for selected MOS's. The applicants must be non-prior service 
with tier I education credential, TSC I-IIIB or Tier II, TSC I-IIIA. 
The ACF is not available for Days of Service applicants. The minimum 
TOS for the MOS governs the availability of ACF. Applicants must enroll 
in the Montgomery GI Bill to receive the ACF. Guidance Counselors will 
ensure that the soldier understands the importance of maintaining the 
GCR Dynamic Annex for verification cf ACF benefits with the Department 
of Veterans Affairs. The ACF may be linked with all other incentives 
except LRP.

17. The following non-combat arms MOS are part of the 2+2+4 ACF test 
program (2 years active duty, 2 years reserve duty, 4 years inactive 
reserve): 56M, 68Q. These recruits enlisting for this program are 
eligible for 2 year ACF only.

18. The enlistment bonus is available to Non-Prior Service and DOS 
applicants with TSC I-IIIA applicants with Tier I, NGYC, Home School 
(HS) or other Tier II that pass TTAS, selecting an incentivized MOS at 
levels 1-7 based on Term of service as shown below. Incentives for each 
MOS by allowable term of service are listed in the following table. An 
MOS merging into another MOS will carry the original incentive with it 
unless the new MOS has a larger incentive, in which case the larger 
incentive will become the current incentive. The three incentive 
packages for each MOS are broken down to show the enlistment bonus (EB) 
only package, EB that combines with the ACF or LRP (EB+ACF or EB+LRP), 
and the ACF only package. The applicants can only choose one of the 
three packages. The `H' in MIN TOS column for MOS 97E, 98C, 98X or 98Y 
indicates that ACASP option applicants (language proficient IAW AR 611-
6) that are otherwise eligible for an enlistment incentive, may enlist 
for a TOS of 4 years and a 4 year incentive for that MOS and incentive 
level. The actual ACF combined with MGIB amounts for 2 year TOS is 
$36,864, 3 year TOS is $51,300, 4 year TOS is $62,100, and 5 year TOS 
is $69,300, and 6 or more year TOS is $72,900.

 
----------------------------------------------------------------------------------------------------------------
                  USAF                     Initial Enlistment Bonus       FY07/1Q--New          FY06/1Q--Old
----------------------------------------            (IEB)            -------------------------------------------
                                        -----------------------------
                  AFSC                              TITLE                6-YR       4-YR       6-YR       4-YR
----------------------------------------------------------------------------------------------------------------
1A831                                    AIRBORNE LINGUIST              $12,000     $3,000    $12,000     $3,000
----------------------------------------------------------------------------------------------------------------
                                         ARMY LINGUIST                  $14,000     $8,000    $14,000     $8,000
----------------------------------------------------------------------------------------------------------------
1C231                                    COMBAT CONTROL                 $10,000     $6,000    $10,000     $6,000
----------------------------------------------------------------------------------------------------------------
                                         ARMY SPEC FORCES               $20,000    $12,000    $20,000    $12,000
----------------------------------------------------------------------------------------------------------------
                                         NAVY SEALS                     $15,000    $10,000    $15,000    $10,000
----------------------------------------------------------------------------------------------------------------
1C431                                    TAC AIR COMMAND AND             $6,000     $4,000     $6,000     $4,000
                                         CONTROL
----------------------------------------------------------------------------------------------------------------
1N331                                    LINGUIST                       $12,000     $3,000    $12,000     $3,000
----------------------------------------------------------------------------------------------------------------
                                         ARMY LINGUIST                  $14,000     $8,000    $14,000     $8,000
----------------------------------------------------------------------------------------------------------------
                                         NAVY LINGUIST                  $12,000     $8,000    $12,000     $8,000
----------------------------------------------------------------------------------------------------------------
                                         MARINE CORPS                   $12,000     $4,000    $12,000     $4,000
----------------------------------------------------------------------------------------------------------------
1T0X1                                    SURVIVAL, EVASION, RESIST,     $10,000     $6,000    $10,000     $6,000
                                         ESCAPE
----------------------------------------------------------------------------------------------------------------
1T231                                    PARARESCUE                     $10,000     $6,000    $10,000     $6,000
----------------------------------------------------------------------------------------------------------------
                                         ARMY SPEC FORCES               $20,000    $12,000    $20,000    $12,000
----------------------------------------------------------------------------------------------------------------
                                         NAVY SEALS                     $15,000    $10,000    $15,000    $10,000
----------------------------------------------------------------------------------------------------------------
3E831                                    EXPLOSIVE ORDINANCE            $10,000     $6,000    $10,000     $6,000
                                         DISPOSAL
----------------------------------------------------------------------------------------------------------------
                                         ARMY EOD                       $20,000    $12,000    $20,000    $12,000
----------------------------------------------------------------------------------------------------------------


    Dr. Snyder. Will the change in policy terminating the 24-cumulative 
month limit on mobilization of reservists have an affect on the 
retention in the reserve components?
    General Coleman. The implementation of the new activation policy 
and the impact of the active component increase to 202K with its 
associated incentives for Marines to stay/return to active duty are 
both factors that may have an impact upon retention in the Marine Corps 
Reserve. However, we are currently unable to forecast the exact nature 
of that impact. We continue to pursue various options to mitigate these 
factors to include the development of the Long War Reserve Force 
Generation Model in order to provide an element of predictability for 
our Reserve Marines. We expect that providing a tool that allows our 
Reserve Marines the ability to predict when they will be called to 
full-time duty will enhance retention.
    Dr. Snyder. Given that the recruiting environment is equally harsh 
for all the services, is there any concern within the Marine Corps that 
some of the recruiting incentives have been designated for use by the 
Army alone? What incentives do you believe should be made available to 
all the services?
    General Coleman. The Marine Corps is not concerned with incentives 
designated for, or used by the Army. However, any recruiting incentives 
should be open to all services. At this time, the Marine Corps makes a 
determination internally based on accession needs how any incentives 
available to all the services are used to support Marine Corps 
recruiting.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MCHUGH

    Mr. McHugh. I would like to have an additional response for the 
record, please, as to the growth of the waivers.
    Dr. Chu. While there has been an increase in the number of new 
accessions with waivers, the quality of new recruits remains high. 
Today's military is younger than the population as a whole, is more 
disciplined, and is more physically and morally fit. Over 90 percent of 
new recruits are high school graduates while only 80 percent of 
American youth are. About 67 percent of new enlistees score in the 
upper half of the enlistment (math/verbal aptitude) test. These 
attributes translate to lower attrition, more effective training, and 
higher performance. Our entrance standards are tough; over two-thirds 
of the American youth populations are disqualified for enlistment by 
military entrance standards, mainly owing to medical conditions. 
However, a limited number of enlistees are permitted to enter the 
military with a waiver of otherwise disqualifying conditions.
    The percentage of new enlistees entering the Service with waivers 
did increase between 2003 and 2006. The greatest increase was for 
waivers for medical conditions. Numerous reports show that obesity is 
prevalent among our youth. Additionally there is a preponderance of 
previously undiagnosed conditions such as Attention Deficit Disorders. 
If these conditions increase in the general population, there will be a 
corresponding increase in our market, and thus a need to review cases 
that warrant consideration.
    Moral waivers are another area of concern. The percentage of people 
entering the Services with moral waivers between 2003 and 2006 actually 
decreased by about 3 percent. Often reports concerning moral waivers 
imply that the Services are allowing hardened criminals and felons to 
routinely serve in our military. This is not true. Our standards and 
criteria for requiring a moral waiver are high. The majority of those 
we identify as felony waivers are individuals who, as a youth, were 
charged with a serious offense, and through the court process, the 
charges were reduced or ultimately dropped. Our policies and practices 
are very conservative, and require us to consider these court actions 
as adverse adjudication at a General Officer's review. The public at 
large generally would not consider these individuals convicted felons, 
but for reporting purposes, we acknowledge the charges. The waiver 
process ensures that the individual is indeed fit to serve.
    Our waiver process has served us well. It is not the quality of our 
young men and women who are in uniform that should be questioned but 
rather our reporting procedures. We will continue to try to educate the 
public about this process in an attempt to dispel the misconception 
that we are allowing felons and hardened criminals to serve. We will 
remain vigilant of the waiver process and will continue to ensure that 
only those determined to be fit for Service are allowed to serve.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. KLINE

    Mr. Kline. What are we doing with the increased demands for 
recruiting? And how much more money are you going to spend on 
advertising?
    Admiral Harvey. Navy had 4,879 production recruiter billets 
authorized in FY06 (3,771 active enlisted, 726 reserve enlisted, 264 
active officers and 118 reserve officers) and has 5,084 billets 
authorized for FY08 (4,000 active enlisted, 703 reserve enlisted, 263 
active officers and 118 reserve officers).
    Navy advertising budget in FY06 was $119.2 million and is $84.6 
million for FY08.
    Mr. Kline. What are we doing with the increased demands for 
recruiting?
    General Coleman. The Marine Corps has not seen a significant 
increase or decrease in incidents around recruiting stations that could 
be tied directly to the Iraq war.
    Mr. Kline. What are we doing with the increased demands for 
recruiting? And how much more money are you going to spend on 
advertising?
    General Rochelle. The Army annually adjusts the accession mission 
to support the end strength requirements. To achieve the accession 
mission, the Army has several levers to include the size of the 
recruiting force, advertising missions, and financial and educational 
incentives. To support the required FY06 accession mission, the Army 
fielded 12,600 uniformed recruiters and spent $477 million on marketing 
and advertising (including dollars re-programmed during the year of 
execution). The Army has already added an additional 300 uniformed 
recruiters (FY07). Funding decreases slightly in FY08 but will be 
adjusted, and the number of recruiters increased, if mission 
requirements increase above 80,000 for the active force.
    Mr. Kline. What are we doing with the increased demands for 
recruiting? And how much more money are you going to spend on 
advertising?
    General Brady. The number of FY06 recruiters for Air Force active, 
guard, and reserve, respectfully, was 1,342, 465, and 400. In FY07, we 
have 1,342 active, 463 guard, and 400 reserve recruiters. In FY08, we 
project having 1,200 active, 493 guard, and 396 reserve recruiters.
    The Air Force recruiting advertising budget for active, guard, and 
reserve in FY06, respectively in millions of dollars, was: (programmed) 
61.1, 5.8, and 9.7 & (executed) 66.5, 15.2, and 12.5. In FY07, the 
budget is programmed at 68.2 million for active, 17 million for guard, 
and 12 million for reserve. Our FY08 programmed recruiting advertising 
budget is 55.1 million for active, 19.4 million for guard, and 13.7 
million for reserve.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MURPHY

    Mr. Murphy. What are the numbers of reported incidents at 
recruiting stations?
    General Brady. Over the past three years, the number of reported 
incidents at recruiting stations where protestors caused problems was 5 
incidents in FY04, 21 incidents in FY05, and 31 incidents in FY06.
    Mr. Murphy. Is there a standard operating procedure (SOP) if there 
is a protest, either at a college or at a high school, or if there are 
people that are barring you access to that student body? What are the 
numbers of reported incidents at recruiting stations?
    General Rochelle. Following a precipitous increase in the numbers 
of seriously reportable incidents in and around recruiting stations and 
on college campuses in Fiscal Year (FY) 2005, the United States Army 
Accessions Command (USAAC) strengthened its reporting procedures and 
tracking of these incidents. Reportable incident data for FY 2006 and 
FY 2007 year-to-date data is below. While demonstrations appear to be 
on the decline, it appears that acts of vandalism and threat 
communications may equal or exceed the previous year totals.


             United States Army Recruiting Command (USAREC)*
 
                                                        FY06      FY07
 
Demonstrations                                            81        42
 
Government Vehicle Vandalisms                             70        49
 
Vandalisms against Recruiting Stations                    27        32
 
Bomb Threats                                              23        15
 
Total                                                    201       138
 


             United States Army Cadet Command (Army ROTC)**
 
                                                        FY06      FY07
 
Demonstrations                                             2         0
 
Government Vehicle Vandalisms                              0         1
 
Vandalisms against ROTC Facilities                         0         1
 
Bomb Threats/Suspicious Packages                           2         1
 
Total                                                      4         3
 
* Note: United States Army Recruiting Command data is as of 24 Apr.
  2007.
** Note: United States Army Cadet Command data is as of 30 Apr. 2007.


    Mr. Murphy. Is there a standard operating procedure (SOP) if there 
is a protest, either at a college or at a high school, or if there are 
people that are barring you access to that student body? What are the 
numbers of reported incidents at recruiting stations?
    Admiral Harvey. With respect to protests, either at a college or a 
high school, Commander Navy Recruiting Command (CNRC) provides standard 
operating procedures through issuance of Public Affairs Guidance (PAG) 
to all Recruiters and Navy Recruiting Districts (NRDs). Training on 
handling protest situations begins at entry-level training for 
recruiters and is reinforced in regular training sessions at NRDs.
    With respect to situations in which access to a school is denied, 
procedures are promulgated in the Navy Recruiting Manual. Instances of 
denial are first resolved, if possible, by the local NRD commanding 
officer and staff. If such efforts fail, reports and procedures are 
executed as provided in a Memorandum of Understanding (MOU) between the 
Department of Defense (DoD) and the Department of Education (DoED), 
which delineates procedures and responsibilities for military 
recruiters and recruiting activities denied access to public schools. 
Recruiters or recruiting activities experiencing problems accessing 
either a school or a student directory reflect this information in the 
Military Recruiter Access to High School (RAHS) database maintained by 
the Defense Manpower Data Center (DMDC). Training on access-to-school 
denials begins at the entry-level training for recruiters and is 
reinforced in regular training sessions at NRDs.
    Navy recruiters have encountered very few instances of organized 
protests at schools. In 2006, Navy Recruiting Region East--comprised 
roughly of the states east of the Mississippi River--reported no 
organized protests at any school or university during recruiting 
visits. For Navy Recruiting Region West, 17 such protests were 
experienced at high schools, 18 at undergraduate colleges and none at 
graduate schools. Navy Recruiting Command reported just one instance of 
denied access (both to students and to student directory) at a public 
high school in 2006 to the Department of Defense via the RAHS database.
    Mr. Murphy. Is there a standard operating procedure (SOP) if there 
is a protest, either at a college or at a high school, or if there are 
people that are barring you access to that student body? What are the 
numbers of reported incidents at recruiting stations?
    General Coleman. The Marine Corps has not seen a significant 
increase or decrease in incidents around recruiting stations that could 
be tied directly to the Iraq war.

                                  <all>

</pre></body></html>
